<html>
<title> - NOMINATION OF GEORGE ``SONNY'' PERDUE TO BE SECRETARY OF U.S. DEPARTMENT OF AGRICULTURE</title>
<body><pre>[Senate Hearing 115-169]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-169

                             NOMINATION OF
                        GEORGE ``SONNY'' PERDUE
                           TO BE SECRETARY OF
                     U.S. DEPARTMENT OF AGRICULTURE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION


                               __________

                             MARCH 23, 2017

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





        Available via the World Wide Web: http://www.fdsys.gov/




                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-497 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
  























           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                     PAT ROBERTS, Kansas, Chairman

THAD COCHRAN, Mississippi            DEBBIE STABENOW, Michigan
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
JOHN BOOZMAN, Arkansas               SHERROD BROWN, Ohio
JOHN HOEVEN, North Dakota            AMY KLOBUCHAR, Minnesota
JONI ERNST, Iowa                     MICHAEL BENNET, Colorado
CHARLES GRASSLEY, Iowa               KIRSTEN GILLIBRAND, New York
JOHN THUNE, South Dakota             JOE DONNELLY, Indiana
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
DAVID PURDUE, Georgia                ROBERT P. CASEY, Jr., Pennsylvania
LUTHER STRANGE, Alabama              CHRIS VAN HOLLEN, Maryland

             James A. Glueck, Jr., Majority Staff Director
                Anne C. Hazlett, Majority Chief Counsel
                    Jessica L. Williams, Chief Clerk
               Joseph A. Shultz, Minority Staff Director
               Mary Beth Schultz, Minority Chief Counsel

                                  (ii)























  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Nomination of George ``Sonny'' Perdue to be Secretary of U.S. 
  Department of Agriculture......................................     1

                              ----------                              

                        Thursday, March 23, 2017
                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     1
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     2
Chambliss, Hon. Saxby, former U.S. Senator from the State of 
  Georgia........................................................     4
Perdue, Hon. David, U.S. Senator from the State of Georgia.......     9
Scott, Hon. David, U.S. Representative from the State of Georgia.     6

                                Witness

Perdue, Hon. George ``Sonny'', Nominee to be Secretary, United 
  States Department of Agriculture...............................     9
                              ----------                              

                                APPENDIX

Prepared Statements:
    Perdue, Hon. George..........................................    46
Document(s) Submitted for the Record:
Roberts, Hon. Pat:
Letters of support for Gov. George ``Sonny'' Perdue
    Agriculture Industry.........................................    56
    American Frozen Food Institute (AFFI)........................    74
    American Horse Council.......................................    75
    American Quarter Horse Association...........................    77
    American Sheep Industry (ASI)................................    81
    American Veterinary Medical Association......................    79
    Catfish Farmers of America...................................    82
    Family Farm Alliance.........................................    83
    Food Marketing Institute.....................................    84
    Independent Community Bankers of America.....................    87
    Industry Crop Insurance Letter...............................    88
    International Association of Fire Chiefs.....................    91
    Michigan Agri-Business Association...........................    92
    National Confectioners Association...........................    93
    National Grocers Association.................................    94
    Oklahoma Soybean Association.................................    96
    Sweetener Users Association..................................    98
    The Fertilizer Institute.....................................    99
    Theodore Roosevelt Conservation Partnership..................   102
    U.S. Secretaries.............................................    97
    Various U.S. Governors.......................................    85
    Western Growers Support......................................   103
Stabenow, Hon. Debbie:
    Dairy Risk Management Agency.................................   104
Perdue, Hon. George:
    5-day letter, Committee questionnaire and Office of 
      Government Ethics Executive Branch Personnel Public 
      Financial Disclosure Report filed by Christopher James 
      Brummer....................................................   106
Question and Answer:
Perdue, Hon. George:
    Written response to questions from Hon. Pat Roberts..........   136
    Written response to questions from Hon. Debbie Stabenow......   139
    Written response to questions from Hon. Heidi Heitkamp.......   161
    Written response to questions from Hon. John Boozman.........   164
    Written response to questions from Hon. Amy Klobuchar........   165
    Written response to questions from Hon. John Thune...........   169
    Written response to questions from Hon. Joni Ernst...........   173
    Written response to questions from Hon. John Hoeven..........   174
    Written response to questions from Hon. Steve Daines.........   176
    Written response to questions from Hon. Luther Strange.......   179
    Written response to questions from Hon. Thad Cochran.........   180
    Written response to questions from Hon. Robert Casey, Jr.....   181
    Written response to questions from Hon. Charles Grassley.....   187
    Written response to questions from Hon. Sherrod Brown........   188
    Written response to questions from Hon. Kirsten Gillibrand...   193
    Written response to questions from Hon. Michael Bennet.......   205
    Written response to questions from Hon. Patrick J. Leahy.....   209
    Written response to questions from Hon. Chris Van Hollen.....   218
 
                             NOMINATION OF
                        GEORGE ``SONNY'' PERDUE
                           TO BE SECRETARY OF
                     U.S. DEPARTMENT OF AGRICULTURE

                        Thursday, March 23, 2017

                              United States Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room 325, Russell Senate Office Building, Hon. Pat Roberts, 
Chairman of the Committee, presiding.
    Present: Senators Roberts, Cochran, Boozman, Hoeven, Ernst, 
Grassley, Thune, Daines, Perdue, Strange, Stabenow, Leahy, 
Brown, Klobuchar, Bennet, Gillibrand, Donnelly, Heitkamp, 
Casey, and Van Hollen.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
  KANSAS, CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. Good morning, members of the Committee, I 
call this meeting of the Senate Committee on Agriculture, 
Nutrition, and Forestry to order.
    This morning, we welcome Governor Sonny Perdue, the 
President's nominee for U.S. Secretary of Agriculture.
    Members of this Committee have great appreciation for the 
farmers, ranchers, consumers, and other stakeholders that are 
directly affected by decisions made by the Secretary. The 
Department of Agriculture is made up of 29 agencies and 
offices. It employs nearly 100,000 men and women that work in 
all 50 states and all around the globe. The Department provides 
leadership on food, agriculture, natural resources, rural 
development, nutrition, scientific research, and related issues 
that impact Americans virtually every day.
    Throughout our Nation's history, our farmers, ranchers, and 
folks in rural America have survived drought, disease, floods, 
tornadoes, and lately--yes, lately--prairie fires in Kansas and 
whatever else Mother Nature throws at them.
    Year after year, they produce the safest, most abundant, 
and affordable food and fiber supply in the world; however, 
today, growers from across the country are facing tough 
economic times with multiple years of low prices.
    These same producers need a strong market for their goods. 
During this critical time, the importance of trade for 
agriculture, our agriculture industry, cannot be overstated.
    If that was not enough, over the last previous years, 
farmers and ranchers and rural businesses have been burdened by 
regulations from agencies all across the Federal Government. I 
have heard time and time again, as well as many members of this 
Committee, about the costly and hard-to-understand regulations 
that endanger the ability of our producers to simply stay in 
business. This Committee will continue its efforts to make 
government a partner in their success, not an adversary.
    This Committee has a lot of work to do over the next 2 
years, including the reauthorization of the Farm Bill. We 
intend to do that work in the bipartisan fashion that has 
served us so well in the past. In this respect, I want to 
personally thank the distinguished Ranking Member and former 
Chairperson of this Committee, the Senator from Michigan.
    Now more than ever, agriculture needs a voice and advocate 
at the highest levels of government, and Governor Perdue has 
been nominated to serve in exactly that role. He is from 
Georgia and has spent his entire life in and around 
agriculture. The Governor was raised on a farm and was a 
practicing veterinarian before returning to his home county to 
work in the grain business. He was elected to serve in local 
and state government, including two terms as Governor of 
Georgia. While serving farmers throughout the Southeast, he 
gained firsthand experience with the complexity of 
transportation and the global commodities market.
    Governor, the Senate's role of advice and consent is an 
important responsibility, and today is a key step in that 
process. We look forward to hearing your testimony and to 
asking you questions about how you view the role of Agriculture 
Secretary, should you be confirmed.
    In addition to the Governor, I would also like to welcome 
and recognize his wife, Mary, his 4 children and their spouses, 
and his 14 grandchildren. The Governor is also joined by so 
many of his friends and former staff from Georgia, we cannot 
count them. We welcome you all to the Committee.
    I am especially glad to have our former Ag Committee 
Chairman and Senator from Georgia, the Honorable Saxby 
Chambliss; and Georgia Congressman David Scott, who serves on 
the House Agriculture Committee--pardon me--the sometimes 
powerful House Agriculture Committee--with us to provide 
introductions of our nominee. I see Congressman Sanford Bishop 
here in the audience to support the nominee as well. Sanford, 
it is good to see you again.
    But before we hear from Senator Chambliss and Congressman 
Scott, I want to turn things over to Senator Stabenow for any 
remarks that the distinguished Ranking Member would like to 
make.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Well, thank you very much, Mr. Chairman. 
It is great to be with you today as we are moving forward on 
this very important position, welcome Governor Perdue. It is 
pretty impressive to see your beautiful grandchildren, as well 
as children and family members. We know that you are a proud 
grandpa and we are happy to have you all here today.
    To my friend, Senator Chambliss, we have worked on a lot of 
Farm Bills together and worked well. Thank you for your service 
as Chair and as somebody advocating for Georgia and all States 
in the interest in agriculture. It is great to see you.
    Representative Scott, welcome to you as well. We have a lot 
of work to do together with our colleagues in the House to be 
able to get the next Farm Bill done. We look forward to doing 
that.
    It is clear that agriculture and rural America need to have 
a seat at the table. It is clear that we need to make sure that 
is happening with this administration.
    Looking back at our history, our Presidents knew that 
farmers were the foundation of the country. That is why 
President Lincoln created the USDA and called it the ``people's 
department,'' because he understood that agriculture is a 
cornerstone of our economy, and that the Department had a 
special relationship with the people it served. America's 
farmers and ranchers grow the safest, most affordable food 
supply in the world, and we should be very proud of that. I 
always say that food security is national security because 
having a food-secure nation makes our country safe.
    Our food and agriculture sector also supports 16 million 
American jobs. It is USDA's job to ensure we can continue to 
make things and grow things in every state, and that means 
celebrating the diversity of American agriculture as well.
    Michigan is the second most diverse agriculture state in 
the country, and it is important that USDA is a voice for 
Michigan farmers, as well as Kansas, Georgia, and all the 
farmers across our country. Large and small, conventional and 
organic, those who sell overseas, those who sell to their 
neighbors--we need a voice for all of our farmers.
    The Agriculture Secretary will need to look past regional 
divides and partisan pressures to support all farmers, all 
families, and all rural communities. Right now we need an 
advocate to stand up for them with this administration. USDA 
not only helps a farmer weather storms, it also saves 
communities from wildfires in the West, helps to make lakes and 
rivers safe for families to enjoy, and ensures children have 
the healthy food they need to learn and grow to be healthy 
adults.
    Rural America is the economic backbone of our country, and 
it is true that too many rural towns are still struggling to 
recover from the Great Recession. Over the past 8 years, USDA 
has made targeted investments in rural economies, and now we 
are beginning to see these communities on the road to recovery. 
But we need to make sure that these important investments 
continue so we can keep moving forward.
    Unfortunately, during the first 2 months of the new 
administration, it is clear that rural America has been an 
afterthought. Even before President Trump took office, he sent 
a message by waiting until the last minute to name his pick for 
Agriculture Secretary.
    Last week's budget proposal has also made it clear that 
rural America is not a top priority for this administration. 
The proposal cuts USDA funding by 21 percent, the third largest 
cut to any federal agency.
    In addition to eliminating critical rural development and 
international food aid programs, the administration has put a 
target on hundreds of critical programs that go through the 
appropriations process. In fact, under the budget, important 
resources for farmers and families are facing cuts averaging 33 
percent.
    We need a Secretary of Agriculture who will advocate for 
the important services USDA provides and rural families and 
farmers need.
    We need a strong voice to insist that the President listen 
to the 500 groups that are saying that agriculture, 
conservation, food assistance, and other Farm Bill programs 
should not be cut further after agreeing to a $23 billion cut 
in the last Farm Bill.
    We also need someone who will partner closely with 
Congress, especially as we put together the next Farm Bill and 
look at other key issues like immigration and trade that have a 
tremendous impact on farmers and rural communities.
    In the 2014 Farm Bill, we made bipartisan reforms that 
saved taxpayers billions and protected the integrity of the 
farm and family safety net.
    The Congressional Budget Office recently estimated that the 
current Farm Bill would save $80 billion more than initially 
projected in the next 10 years, largely driven by crop 
insurance costs going down and reduced spending on food 
assistance, as the economy has improved.
    In this Congress, we will be working hard to move another 
bipartisan Farm Bill. I am excited for this challenge, Mr. 
Chairman. With the USDA leadership and with all of our 
stakeholders, I know that we can get it done. We have worked 
together before on a comprehensive bill. We will do it again 
for the communities that we represent and for the entire 
country.
    Especially during these times of low prices for agriculture 
and uncertainty around the budget, trade, and immigration, we 
need the next Secretary to be an unapologetic advocate for all 
of rural America. We need someone who will be tenacious, much 
like a Georgia bulldog.
    Governor Perdue, we need a champion--and I know you know 
that--right now more than ever. Today, I look forward to 
learning more about your views and qualifications to lead one 
of the most important Departments in our Federal Government.
    Thank you, Mr. Chairman.
    Chairman Roberts. I thank the Senator from Michigan.
    It is my privilege and pleasure now to recognize the 
distinguished former member of this Committee and Chairman of 
this Committee, our colleague, our friend, the Honorable Saxby 
Chambliss.

STATEMENT OF HON. SAXBY CHAMBLISS, FORMER U.S. SENATOR FROM THE 
                        STATE OF GEORGIA

    Senator Chambliss. Mr. Chairman, Ranking Member Stabenow, 
distinguished members of the Committee, I am truly honored to 
be before you today, and I am humbled to be on this side of the 
dais but glad to be on this side for a number of reasons. But I 
am particularly pleased and honored to be here today to 
introduce my good friend, Governor George Ervin ``Sonny'' 
Perdue, who is President Trump's nominee to be the next 
Secretary of Agriculture.
    You know, I spent 12 of the best years of my life right 
here, and when people ask do I miss the Senate, I am very quick 
to respond that what I miss are the good friends that I made 
over my 20 years in Congress, and members of this Committee are 
right at the top of the list of those best friends, and it is 
on both sides of the aisle. So I truly am pleased to be here.
    When I was sworn in as a new Member of the House of 
Representatives in January of 1995, I was given the next-to-
the-last seat on the Committee on Agriculture, which was made 
up of more than 50 Members. The Chairman of that Committee was 
the gentleman from Kansas, Mr. Roberts. Now, Mr. Chairman, you 
are probably the only person in the history of our country to 
chair both Committees, and I am going to steal your phrase, 
because I have heard you say it so often, that the ``Sometimes 
Powerful Ag Committee,'' but you are to be congratulated for 
having the honor of chairing both Committees.
    Governor Sonny Perdue is no stranger to agriculture. Sonny 
grew up on a farm in Houston County, Georgia, graduated from 
the veterinary school at the University of Georgia, and after a 
tour in the Air Force, returned to Houston County to be 
actively engaged in row-crop farming as well as in the 
operation of a very successful grain elevator business.
    When I was elected to Congress, Sonny was a constituent of 
mine and was by that time in his life a member of the Georgia 
State Senate. Now, Houston County is the home of Robins Air 
Force. So Sonny and I shared the interest of defense as well as 
agriculture in our respective positions, and we began a 
dialogue that has lasted to this day.
    In 2002, Sonny decided to run for Governor of Georgia, and 
I decided to run for the United States Senate, and needless to 
say, we spent many hours campaigning over the next year prior 
to that election. When you eat a lot of fried chicken and a lot 
of barbecue and ride a bus with somebody for a long period of 
time, you get to know them, and I got to know Sonny well.
    That November, Sonny was elected as the first Republican 
governor in our state in 130 years. Sonny has been a leader in 
everything he has been involved in doing. As a farmer, he was a 
leader in the field of agribusiness in our state. As a member 
of the State Senate, he was elected by his peers to be the 
president pro tem of the Senate, and as governor, he was the 
chairman of the Republican Governors Association.
    When he was elected governor, Sonny did what good leaders 
do, and that is to surround himself with good people. He went 
out and found a very experienced CEO and very experienced CFO. 
He also improved the state's leadership by implementing a 
meritocracy in that he went out and found the very best and 
most qualified people to run every one of our state agencies, 
irrespective of the political affiliation of those individuals. 
He committed to make Georgia the best managed state in the 
Nation, and he received significant national recognition for 
his accomplishments.
    When he was elected, the state could not produce an audit, 
so he created the first state accounting office to focus on the 
timeliness and usefulness of financial information. Technology 
and purchasing systems at the state level were antiquated. 
Under Sonny's leadership, those systems were updated, and the 
state purchasing system has received many awards for its 
efficiency and accountability. A new state data center was 
established, and much of the appropriate technology was 
outsourced in order to stay current and technologically state-
of-the-art.
    Now, we all know that technology at USDA today is way 
behind the curve. It is inefficient, and it is not farmer-
friendly. This will be a challenge to Sonny, but I am very 
confident that he will be up to that challenge.
    One of Sonny's most significant initiatives was the 
customer service focus to treat citizens of our state as 
customers and to create services for them that were faster, 
friendlier, and easier. That initiative significantly reduced 
the time and improved the customer experience in everything 
from getting a driver's license to getting a tax refund. It 
also produced a cultural change as state employees bought into 
this initiative.
    Such an effort at USDA would be a vast improvement in the 
relationship with Washington and its largest customers at 
USDA--farmers and ranchers. This kind of executive experience 
and leadership combined with Sonny's knowledge of USDA programs 
make him ideally suited to be the next Secretary of 
Agriculture.
    Mr. Chairman, I would urge this Committee to approve his 
nomination and bring his confirmation to a vote on the floor of 
the Senate as soon as possible, and I thank you very much.
    Chairman Roberts. Thank you, Senator Chambliss, for an 
excellent--an excellent statement on behalf of the Governor.
    It is also my personal pleasure and privilege to introduce 
a member of the House Agriculture Committee, a very valuable 
member, Congressman David Scott. David, we are delighted to 
have you here in the upper body.
    [Laughter.]
    Chairman Roberts. We will not go any farther with that.
    Please proceed, sir.

  STATEMENT OF HON. DAVID SCOTT, U.S. REPRESENTATIVE FROM THE 
                        STATE OF GEORGIA

    Mr. Scott. Well, Chairman Roberts, thank you for that, but 
I do want to make one slight correction. When you said that 
House Agriculture was sometimes influential and powerful, may 
we add an amendment to that so it will go out that the House 
Agriculture Committee has always been and will always be 
powerful and influential.
    Chairman Roberts. I appreciate that correction. It just was 
only one chairman that had the tenure when it was sometimes 
powerful.
    [Laughter.]
    Mr. Scott. Touche, my friend. I will certainly take that in 
consideration.
    Chairman Roberts, I am greatly honored and very thankful to 
have this opportunity to come and stand with my dear friend, my 
longtime friend, Sonny Perdue.
    I want to just take a few minutes to share with you some 
things about Sonny that you need to know. My good friend, 
Senator Saxby Chambliss, went into great detail to share with 
you his immense qualifications, his education, the fact that he 
went to University of Georgia's veterinarian school.
    But I am here to explain to you why Sonny Perdue is, 
indeed, the right person at the right time to do the absolute 
best job, the talents that I have shared and have witnessed 
with him in coming up through Georgia State Senate.
    You see, Committee members, I was chairman of the Senate 
Rules Committee in Georgia for 10 years, first African American 
to get that position. My good friend, Sonny Perdue, was the 
president pro tempore of the Senate. Now, I am not saying that 
to just shake a bell on our credentials here, but I think that 
if you put that in the context of the Georgia legislature--and 
I assure you that Georgia legislature was one of the most 
exciting places to be every 40 days that went on for almost 80 
days.
    Now, Sonny and I had to meet every single day to work 
together, to set the agenda, to determine what bills got on to 
the floor in the House and the Senate, sometimes night after 
night, and when we did that, we had to also sit with the 
Governor and the Speaker. You talk about some fireworks; there 
were plenty in that Georgia legislature.
    But you get to understand a person's temperament when you 
are on the battlefield with them, their courage, their 
decisiveness, and Sonny Perdue was just such a person. So on 
all of the major pieces of legislation that affected every 
Georgian of every stripe, of every condition, Sonny Perdue had 
a very integral part of that.
    I want to take just a few minutes, if I may, because what 
is important to me is to make sure that my friend Sonny Perdue 
becomes the Secretary of Agriculture very quickly and that he 
comes with his record unblemished. That is why I wanted you to 
know at the outset, ladies and gentlemen, Sonny Perdue and I 
worked into the midnight hours, night after night. You get to 
know a person. He and I were like brothers, and I am grateful 
for that relationship.
    I want to take just a minute, though, to address an issue 
that--I do not know--may or may not come up, but I think I 
would be derelict in my duty if I did not set the record 
straight on the Confederate battle flag business that has been 
in the air. I want to make sure that when you measure Sonny 
Perdue on that issue as well as all issues that you measure 
Sonny Perdue right.
    Now, let me just give the Committee and the Nation just a 
preview and a setting. First of all, Sonny Perdue and I came 
along at a very significant time when Georgia made one of its 
most hysteric moments in changing the Confederate battle flag 
emblem from our State flag. It took time. It took experience. 
It took talent. It also took, Committee members, God's 
providence, his divine intervention at a very critical need 
when we needed it most, and because of leadership at that time, 
there were three governors. You cannot just tell the story with 
just one governor. This has been an ongoing process, and it 
took education. It took commitment. But the people of Georgia, 
black and white, rose to that occasion.
    I want to just state that the first governor that had the 
courage to step forward to change that Confederate battle flag 
was Zell Miller, one of your former colleagues here. That took 
courage, and Zell paid the price for that. But it is very 
important to know that it was the white leadership in Georgia 
that stepped forward to lead that fight, took great risk to do 
so.
    Then there was the second governor, Governor Roy Barnes, 
and as I said, God puts the right people in the right place at 
the right time. Governor Roy Barnes, one of the most courageous 
governors, a man of sterling strength, chose to do it, and he 
put forward the new flag. He too--and let me tell you 
something, Committee members. Many of those senators, State 
senators and State representatives, when they stood up to vote 
for that, many knew that they were not coming back because they 
were defeated. We have to measure people correctly, and they 
built on the foundation that each one laid.
    Then came Sonny Perdue. The flag issue was in his lap. It 
was on everybody's mind. So when you judge a person, you have 
to judge them based upon the circumstances that he was placed 
in. Sonny Perdue, let it be known that when he was elected 
governor, he put forward a referendum. It was a tremendous 
campaign. Governor Roy Barnes lost the governorship for that. 
Many members of the House and the Senate lost their positions 
for that, and they deserve to be pointed out, respected for 
that. They paid the price, and when it came time and Sonny was 
elected, he promised a referendum, because the people of 
Georgia, it was their decision to make.
    But you talk about brilliance, you talk about achievement 
in a tough area; Sonny Perdue negotiated the compromise and put 
together the referendum and gave the people a choice. He put 
Governor Barnes' flag there, which had a small emblem of the 
Confederate battle flag on there, and then Governor Sonny 
Perdue did a tremendously smart thing. He got an agreement on 
another flag that did not have the battle flag emblem on it, 
and he put that flag there with Georgia State seal, and he 
said, ``People of Georgia, choose which one.'' You know what, 
Mr. Chairman and Committee members? The people of Georgia chose 
the one flag that Sonny Perdue provided the leadership, that 
did not have the small Confederate flag that Roy Barnes had.
    We did not get to that point easily, but it was a great 
moment for the white and black people of Georgia. It could not 
have happened if we did not have a person with the level-
headedness, with the brilliance and the tactical maneuvering, 
the willingness to sit and bring together Democrats, 
Republicans, urban, and rural together to solve that and let 
the people solve it.
    I often refer to that experience, Chairman and Committee 
members. I call to your reference three people. God chose three 
people to get us to the Promised Land; Jacob, which was our 
Zell Miller, because Zell Miller had to go up and wrestle with 
this issue. Then came our Moses, Roy Barnes, who provided the 
leadership right to it, but then we had our Joshua that got us 
on across the Jordan River.
    With that, Mr. Chairman, I urge you with all speed and 
urgency to please confirm my good friend, a great Georgian and 
a good American, a great American, who will make one of the 
best Secretaries of Agriculture this Nation has had, Sonny 
Perdue.
    Mr. Perdue. Thank you.
    Chairman Roberts. Congressman, thank you for that very 
inspiring endorsement. I think every member here, if they would 
like to be endorsed for anything, would welcome you to do that. 
That was very special, and I appreciate it very much.
    Governor?
    Senator Perdue. Mr. Chairman?
    Chairman Roberts. Oh, I am sorry. Oh, pardon me.
    Senator Perdue would like to have the opportunity to 
endorse Governor Perdue.
    Senator Perdue. Thank you, Mr. Chairman. I promise to be 
brief. As it has been stated----
    Chairman Roberts. You take all the time you want. You were 
waving your arms, and I could not see you over there.

STATEMENT OF HON. DAVID PERDUE, U.S. SENATOR FROM THE STATE OF 
                            GEORGIA

    Senator Perdue. I just want to make a brief statement. As 
it has been stated, Governor Perdue and I are first cousins. We 
grew up together. We have a strong family. It is an extended 
family. I've known this man all of my life, and I can think of 
no one in the United States more qualified to be the next 
Secretary of Agriculture.
    In Joshua it calls us to be strong and courageous. I know 
this man to be both strong and courageous. Today, he is going 
to answer all our questions, and the only thing I can say to 
him is, good luck, Cuz.
    [Laughter.]
    Chairman Roberts. Governor Perdue, would you please rise 
and raise your right hand, please, sir. First, do you swear 
that the testimony you are about to present is the truth, the 
whole truth, and nothing but the truth, so help you God?
    Mr. Perdue. I do.
    Chairman Roberts. Second, do you agree that if confirmed, 
you will appear before any duly constituted committee of 
Congress if asked to appear?
    Mr. Perdue. Yes, sir, I will.
    Chairman Roberts. Thank you. Please proceed now with your 
testimony, Governor.

   TESTIMONY OF HON. GEORGE ``SONNY'' PERDUE, NOMINEE TO BE 
       SECRETARY, UNITED STATES DEPARTMENT OF AGRICULTURE

    Mr. Perdue. Thank you, Mr. Chairman. Good morning, Chairman 
Roberts and Ranking Member Stabenow and distinguished members 
of the Committee. It is an honor to be with all of you here 
today as the President's nominee to serve as the Nation's 31st 
Secretary of Agriculture.
    Before I go any further, I want to thank both of my good 
friends and fellow Georgians, both Saxby Chambliss and David 
Scott, for their words of encouragement and inspiration to me 
as well, Mr. Chairman. I also want to thank my good friend 
Sanford Bishop, Congressman Sanford Bishop, whom we served in 
the State Senate together, as well for being here this morning 
also.
    I know from visiting with many of you in your offices, 
there was some anxiety over whether there would be a Secretary 
of Agriculture nominee, and I must say with all the humility I 
can muster, I think the President must have saved the best for 
last.
    [Laughter.]
    Mr. Perdue. I would like to thank each of you for making 
time to meet individually with me over the last few weeks, and 
I hope and trust that our meetings will not just be 
introductory episodes, but an ongoing opportunity to listen and 
to learn from one another. My goal today is to answer your 
questions transparently. You have--and to your satisfaction, 
not only to earn your affirmative vote, but your trust, and if 
you will afford me the opportunity, I will carry out this 
awesome job with integrity, complicit with the laws and 
policies that are set forth by Congress, and with the 
compassion of a golden-rule heart.
    Before I get started, though, I would like to take a moment 
and introduce my family members who are with me here today. I 
am accompanied by my lovely wife, Mary, over my left shoulder. 
I had no idea when I married her 44 years ago, she would be 
such a prolific grandmother. As you can see, seated with Mary 
are our 4 children and 14 grandchildren and who are more 
familiar with my being called ``Big Buddy'' rather than any 
fancy other titles.
    I am also pleased and frankly humbled, after 7 years, to 
have more than 30 of my former coworkers here, who labored side 
by side with me while serving the State of Georgia and its 
people.
    Chairman Roberts. Governor, could you pardon this 
interruption. We would like for your family and your coworkers 
to stand, if you would, please.
    Mr. Perdue. Please.
    Chairman Roberts. Thank you all for being here.
    [Applause.]
    Mr. Perdue. Good-looking crowd, if I say so myself.
    You read my bio and pored over my personal and professional 
history, but if you will indulge me today, I would like to tell 
you just a little bit about myself.
    As a youngster growing up on a dairy farm and a diversified 
row-crop farm in the middle of Georgia, I never really fully 
realized the blessings that purposeful, meaningful work would 
serve me as well as they have in my life. When I was a young 
boy feeding the calves and plowing the fields, I was an 
integral part of the workforce there on our family's farm. My 
mother was an English teacher, 42 years.
    Chairman Roberts. Governor, if you would just cease for a 
moment, and we will take care of this problem.
    [Pause.]
    Chairman Roberts. Please proceed, Governor.
    Mr. Perdue. Yes, sir. Thank you.
    My mother was also an English teacher for 42 years, so I 
benefitted from her teachings as well, not just by raising me 
with the beliefs that I hold dear to my heart today, but being 
an English teacher, she also made sure I knew about dangling 
participles. It was a great life, and I had a blessed 
upbringing with wonderful memories. My favorite hobbies as a 
youngster were playing Little League baseball, training bird 
dogs, and riding my horse, Trigger.
    Even as a youngster, I was determined and goal-oriented 
early on. I set my heart on becoming a veterinarian, having 
been influenced by Dr. Davis, a kind and gentle veterinarian 
who cared for our dairy herd.
    So, after high school, I enrolled at the University of 
Georgia, where I walked on to play football for the University 
of Georgia Bulldogs, Senator. ``Play'' is probably not the 
operative word, but I was on the team. Realizing that my future 
was not on the football field, I decided to apply myself to my 
studies.
    As I entered veterinary school in 1967, you may remember 
Vietnam was roiling, so I signed up for an early commissioning 
program, the United States Air Force. As I finished my 
veterinary education in 1971, I was assigned to Columbus, Ohio, 
as base veterinarian, whose primary responsibilities were food 
safety, public health, and sanitation.
    As I completed my active duty commitment, I joined a small 
animal veterinary practice in Raleigh, North Carolina. I soon 
realized, though, even though our practice was thriving, that I 
missed our farm and my former agricultural way of life. So, in 
1976, Mary and I and our two small girls moved back home where 
I partnered with my brother-in-law to build a grain elevator in 
our home county, which did not yet have one. Sadly, my brother-
in-law and my partner passed away after only 3 years at the age 
of 43.
    So I have been in agribusiness since 1977, the founder and 
operator of three agribusiness and transportation firms serving 
farmers across the southeastern United States. Farming and 
farmers have been my life ever since. I have lived and breathed 
the exhilaration of a great crop and the despair and 
devastation of a drought. I have learned by experience what my 
father told me as a child, ``If you take care of the land, it 
will take care of you.''
    So let us fast-forward to what you are probably more 
interested in, my years as a public servant, and I want to be 
clear. Growing up, I was not one of those young men, young boys 
who shook a President's hand at the age of 16 and aspired to 
run for office. I was tuned into current events, but I had 
absolutely no interest in elected politics. I did understand we 
all have civic rent, so I agreed to chair our local planning 
and zoning commission. But after 10 years of that service, a 
State Senate seat became open, and I was asked to run for that 
seat. I initially declined, but after a pre-planned family 
vacation to Williamsburg, Virginia, I changed my mind, having 
observed the Founders' demonstration of citizen engagement.
    In 1990, the people of District 18 elected me to serve as a 
member of the Georgia State Senate. I served there for 11 years 
and during my tenure was elected by my colleagues, as 
Congressman Scott said, to be president pro tempore, the 
pinnacle of leadership in that body, from 1996 to '98. You have 
probably heard--and it is interesting to note--that I served 
both as a Democrat and a Republican in the Georgia State 
Senate. In 2002, I was elected the first Republican governor of 
Georgia in more than 130 years, as Senator Chambliss reminded 
us, and I assumed that office believing that it was a big job, 
not just a position. Our team worked diligently for 8 years, 
striving to make Georgia the best managed state in the Nation. 
As you remember, the period of time from 2002 to 2011 were not 
the best economic times in our Nation, but we learned with the 
help of a joyful state workforce that we could continue to 
provide value to the citizens of Georgia, even in times of 
extreme budget pressures.
    Even though Georgia may not compare to some of your states 
in some agricultural sectors, I am proud to say that I come 
from a state whose number one economic driver is agriculture. 
In Georgia, agriculture is one area where Democrats and 
Republicans consistently have reached across the aisle and 
worked together. I am pleased to know that reaching across the 
aisle is common practice within this Committee, where 
partisanship does not get in the way of good solutions for 
America's farmers, ranchers, and consumers.
    If confirmed as the Secretary of Agriculture, I look 
forward to working with you, all of you. The makeup of this 
Committee speaks to the size, the reach, and diversity of 
America's agricultural sector, and it includes at least one guy 
that I picked watermelons with side by side in my youth.
    Though I have a lifetime of experience with farming and 
agribusiness, I appreciate that the Department of Agriculture 
touches the lives of Americans in many ways that go beyond just 
farming itself, including, in a very small way, improving the 
lives of the least of these. To continue that role, if I am 
honored with Senate confirmation, I will work tirelessly to 
advance four primary goals, and each of these goals is focused 
on an important constituency, the stakeholders of American 
agriculture.
    First, I will maximize the opportunity and ability of the 
men and women of America's agriculture and agribusiness sector 
to create jobs, to produce and sell the food and the fiber that 
feed and clothe the world, and to reap the earned reward of 
their labor. We want to remove every obstacle and give them 
every opportunity to prosper.
    Second, for the American taxpayers, our customers, I will 
prioritize customer service every day. They expect and have 
every right to demand that we conduct the people's business 
officially, effectively, and with the utmost integrity.
    Third, as our taxpayers are also our consumers, they expect 
a safe and secure food supply, and USDA will continue to serve 
in that critical role of ensuring the food that we put on the 
table to feed our families meets the strict safety standards to 
which we have established and are accustomed.
    I will never forget that we are the fortunate beneficiaries 
of past generations who put a premium on smart stewardship, 
protecting, preserving, and entrusting us with those valuable 
resources. That is the basis of our fourth goal. American 
agricultural bounty comes directly from the land, and today, 
those land resources sustain more than 320 million Americans 
and countless millions more around the globe.
    Mr. Chairman, thank you for your time this morning, and 
rest assured that if confirmed, I look forward to working with 
the dedicated men and women of the USDA who are committed to 
serving the people's department. I look forward to answering 
your questions. Thank you very much.
    [The prepared statement of Mr. Perdue can be found on page 
46 in the appendix.]
    Chairman Roberts. At this time, before we begin 
questioning, Senator Chambliss and Congressman Scott, if you 
would like to excuse yourself, why, please do so.
    [Pause.]
    Chairman Roberts. Governor, I will begin by saying that our 
farmers and ranchers depend on strong trade relationships 
around the world. Expanding market access and ensuring that our 
producers have a level playing field is absolutely critical to 
our rural economy. The U.S. Department of Agriculture and the 
Office of U.S. Trade Representative have a history of working 
hand in hand to make sure that U.S. agriculture has an 
influential seat at the trade table.
    As this administration takes shape, I have been concerned 
that there may be too many cooks in the kitchen when it comes 
to trade, and we want to make sure that they are familiar with 
the main ingredients.
    In addition to the USTR, the President recently established 
a new National Trade Council at the White House and increased 
trade responsibilities under the Department of Commerce. The 
question is, what is the best way that the Department of 
Agriculture can continue and strengthen its involvement in 
establishing strong trade policies? How can we best work with 
the U.S. Trade Representative, the lead trade negotiator, along 
with other officials throughout the executive branch to make 
sure that agriculture is a top--and I mean top--priority?
    Mr. Perdue. Thank you, Mr. Chairman. You are absolutely 
correct, and I think as Senator Stabenow mentioned, agriculture 
needs a strong advocate, a tenacious advocate regarding one of 
the top issues.
    We are blessed in this Nation to be able to produce more 
than we can consume, and we are grateful for that, but 
obviously, that implies that we need to settle the bounty all 
around the world. You are correct. The relationship between the 
USDA and its trade representatives, as well as the USTR, as 
well as Secretary Ross and Commerce will be vital. Those really 
begin with relationships and, I think, personal relationships.
    I have had conversations already in this pending time 
awaiting confirmation to discuss with Mr. Lighthizer in a 
conversation with Secretary Ross over the great opportunity 
they have to use the bounty of American agriculture to promote 
agricultural products and to sell those products around the 
world, I think, building goodwill as well as doing the moral 
aspect of helping to feed that world.
    Chairman Roberts. I thank you for your response, Governor.
    Let me advise all members of the Committee, we will have a 
second round. I know members have other things and other 
responsibilities, and there are other committees that are 
meeting, but we will have a second round.
    In preparation for the 2018 Farm Bill, this year the 
Committee has already started our process of listening to 
farmers, ranchers, and other stakeholders. Before we write any 
Farm Bill, the Committee examines the program and asks what is 
working and what is not working. We will continue the listening 
and learning process over the weeks and months to come as we 
craft the next Farm Bill.
    I would greatly appreciate your commitment of the 
Department's resources to assist our Committee during this 
entire process. Can we expect support regarding our efforts on 
behalf of America's farmers and ranchers?
    Mr. Perdue. Mr. Chairman, I look forward with great 
interest to be involved with you all as you look to deliberate 
and to create the 2018 Farm Bill. I will absolutely commit to 
you, if confirmed, the resources and the research of the U.S. 
Department of Agriculture to provide you the information you 
need to make good decisions.
    I value my own self as governor in being a facts-based, 
data-driven decision-maker, and I think it is important that we 
take those facts of things that have worked, learn from the 
past, those things that have not worked, and create a Farm Bill 
for the future in 2018.
    I know that you and the Ranking Member are already on the 
job in doing that in your respective states and listening to 
our producers across the country as well as our consumers. So I 
will absolutely commit to you that you will have access to the 
resources of the Department of Agriculture and anything that 
you believe you need, to the depth that you need, if I am 
allowed to be Secretary, to utilize those resources.
    There is great talent over there. We know that the men and 
women of the USDA have a great wealth of knowledge. The career 
employees have been doing this for years, and there is a great 
opportunity to learn from them as well as our producers. I see 
the 2018 Farm Bill as an opportunity to meld the wisdom of 
those career people with what you all hear in your own 
districts to make sure that a 2018 Farm Bill meets the needs of 
our producers, our consumers, and the American taxpayers in 
2018.
    Chairman Roberts. Thank you, Governor. We have already had 
the first hearing in Manhattan, Kansas, 600 people in 
attendance, and that is what the building held, that is when 
the fire marshal said stop. Pretty much all of them, as I 
recall, Senator, stayed. We had 21 good witnesses.
    I am going to Michigan State. I will probably have to wear 
green and white and may apologize for the 20-point victory that 
Kansas had.
    Senator Stabenow. Okay, you can stop now.
    [Laughter.]
    Senator Stabenow. I wore purple when I went to Kansas. I 
just wanted you to know that. I wore purple for the Chairman, 
and he is reminding me of something I would like to forget.
    Chairman Roberts. Maybe you could wear black or something 
like that.
    [Laughter.]
    Chairman Roberts. Okay, Senator Stabenow.
    Senator Stabenow. Well, thank you, Mr. Chairman. I am 
actually going to defer to former Chairman, Senator Leahy, who 
has responsibilities on the Judiciary Committee. We know there 
is a very important Supreme Court nominee being considered, and 
he does need to leave. So, with your agreement, I am going to 
defer to Senator Leahy.
    Chairman Roberts. The distinguished Senator and father of 
the northeastern dairy compacts always presented to us at the 
11th hour and 59th minute----
    Senator Stabenow. That is true.
    Chairman Roberts. --is recognized.
    [Laughter.]
    Senator Leahy. Do not forget I wrote the organic Farm Bill 
too. But, Mr. Chairman, thank you, and, Senator Stabenow, thank 
you for your usual and gracious courtesy.
    We know how important the Department of Agriculture is in 
supporting our Nation's farmers, our rural communities, our 
hungry and malnourished families here and abroad, forest lands, 
consumers. They also advance innovation, research, and energy, 
the environment, the mounting climate crisis. We have to 
address what is happening in climate change, the nearly 
doubling of acres burned in western fires over the last 30 
years, and, of course, Governor that problem in Georgia. If it 
is left unchecked, in 10 years, two out of every three 
dollars--just think of this. Two out of every three dollars 
that we appropriate for the Forest Service will be spent on 
fire programs, and of course, there is also the loss of life.
    Last year, we lost a young Vermonter, Justin Beebe, who was 
killed while battling a fire in Nevada with the Lolo Hotshots. 
So we have to work on this.
    I would commend to you, as I did when we had our private 
meeting, the dedicated, competent, and loyal federal employees, 
Agriculture Department employees, many of them, and they 
deserve your support. It is a time when they wonder what is 
happening with hiring freezes or cutbacks. You should spend 
time with them.
    Now, I am going to submit a number of questions for the 
record, but as I was reminded by the Chairman, I never would 
have thought this otherwise. I should mention something about 
our dairy farmers. They are desperate for a new Farm Bill, but 
they are asking for some of your support in developing much 
needed risk management options for milk producers. Dairy 
farmers cannot get left behind. They look at cotton farmers in 
Georgia and Arkansas who are given generous payments, like the 
$300 million last year in the Cotton Ginning Cost-Sharing 
Program. I think we have to have help for our dairy farmers. I 
would hope that we have, as we have had direct support provided 
to cotton producers by the USDA outside of the Farm Bill, I 
recommend--or recommended by the USDA for inclusion in the next 
Farm Bill. Will you work on a proportional and immediate 
support for hardworking dairy farmers?
    Mr. Perdue. Senator, I will commit to you. As a son of a 
dairy farmer and having dairy myself, I understand the hard 
work, 7 days a week, 365 days a year that our farm families, 
particularly smaller farm families, particularly in your area 
and others go through. These are family operations, and they do 
not take a holiday. They do not take a break, and I understand 
the pain when the profitability of these farms for the milk 
prices are just not there. It puts many farm families under 
duress to do that.
    Senator Leahy. I appreciate that.
    One of the problems that they face too, is that 
dairyfarmers have a well-documented farm labor shortage. Now, 
the federal H-2A Temporary Agricultural Visa Program, which has 
helped many--it has worked in your State of Georgia. The Trump 
Winery uses it, but it allows only for seasonal farm workers.
    The Senate had passed comprehensive immigration reform, 
which the House did not take up. They said that even though it 
would have passed that it would violate the--apparently the 
sacred rule they have, the Dennis Hastert rule, as they did not 
bring it up. But now we are having with the operations of ICE 
and others--I would ask you to support finding a way to include 
dairy farms, which require year-round labor. I mean, you ca not 
have somebody come in for 6 months and then say, ``Okay,'' to 
the cows, ``I will be back in 6 months to milk you again.'' 
Your own experience that does not work very well.
    So we have--sheep and goat herders have that exemption. 
Will you work with us to find a way to have dairy farms, dairy 
farm workers in the same program, in the same way goat and 
sheep herders are?
    Mr. Perdue. Senator, if I am honored by the confirmation of 
the Senate, then I will commit to you to certainly advise and 
counsel the administration over the need for an agricultural 
program that is for workers that is year-round. As you 
indicated, cows cannot be milked half a day. There are 365 days 
a year, and I am very well aware of that. So there is a need.
    Obviously, many of our dairy workers are immigrant workers, 
and while there are exemptions in other places, certainly I 
believe dairy qualifies for that as well.
    Senator Leahy. Thank you.
    Thank you, Mr. Chairman, and thank you, Senator Stabenow.
    Chairman Roberts. The Chair recognizes the distinguished 
Senator from Michigan, Senator Stabenow.
    Senator Stabenow. Well, thank you very much, Mr. Chairman, 
and welcome again, Governor Perdue. We are glad to have this 
hearing. We need a Secretary of Agriculture, and we need to 
move forward. I appreciate the fact that you understand the 
agency and agriculture and grew up in agriculture and support 
the mission of the agency. That is very, very important.
    I want to first start where I think Senator Leahy left off 
in terms of dairy. You and I have talked about this, and I know 
growing up on a dairy farm, you understand the challenges. 
Certainly, when we look at the last Farm Bills--and Chairman 
Roberts and I worked very hard to expand crop insurance--we did 
expand it to specialty crops, which we are already seeing has 
been very important with the weather challenges in Michigan and 
other places for our growers. We also worked to expand help for 
young and beginning farmers. But dairy farmers have not been 
able to qualify for crop insurance.
    As you and I talked about yesterday, three national groups 
that speak for dairy farmers, both the American Farm Bureau, 
National Farmers Union, and the National Milk Producers have 
suggested a way that the USDA could provide additional risk 
management tools for dairy farmers in the short run, while we 
are putting together the Farm Bill, because we have family 
farmers in Michigan and across the country that are in a very, 
very difficult situation.
    If you are confirmed will you commit to working with me and 
working with the industry and all of colleagues who care about 
this, to use administrative authority available to you to 
provide our Nation's dairy farmers with reliable risk 
management tools, including the crop insurance proposal that 
was put forward in the letter by the national organizations?
    Mr. Perdue. Senator, I welcomed our meeting yesterday, and 
I was intrigued by your suggestion of that. As I indicated to 
you, many of your colleagues have regretted the fact that the 
2014 Farm Bill really did not meet to your expectations for 
dairy farmers or maybe even the cotton program as well, and is 
not under Title I.
    As I indicated yesterday, I am absolutely committed to look 
for a way that can give immediate and temporary relief even 
prior to the 2018 Farm Bill, if it is within the discretion of 
the Secretary, if I am confirmed, and also we have got to be 
mindful, obviously, of budget periods as well, so it has got to 
be within the parameters that meet the budget as well. But I 
think the ideas that have been proposed are intriguing to me. I 
have no philosophical difference with those definitions that 
have been suggested, and I would absolutely look forward to us 
providing a short-and a long-term solution for the dairy and 
even the cotton program that may help really in the context and 
the formation of the 2018 Farm Bill. I think it would be great 
if we had some ideas that we believe could work even prior to 
that time.
    Senator Stabenow. Thank you very much. I think we do have 
an opportunity, and I really look forward to working with you 
to achieve that.
    You mentioned the budget, and I have to focus on the budget 
because I am deeply concerned about the budget put forward by 
the administration, which signals a lack of understanding of 
agriculture.
    I have always said to have an economy and to have a middle 
class, you have to make things and grow things. It is clear the 
President has focused on making things, which I appreciate in 
Michigan, but not growing things, which is equally important. 
So when we look at a 21 percent cut in the USDA budget it is 
extremely concerning to me and to so many of us that care about 
small towns. In fact, I grew up in one of those small towns in 
northern Michigan.
    I would like to just go through a series of questions 
quickly and get your yes or no answer on whether or not you 
would support these things. Do you think that small communities 
should have the same access to clean water as large cities?
    Mr. Perdue. Of course.
    Senator Stabenow. Good. Do you think it is important for 
individuals in small towns who live far away from a health 
center or a hospital to have access to telemedicine services?
    Mr. Perdue. Like you, Senator, as a product of a small 
community, I absolutely do.
    Senator Stabenow. Do you think it is important that farmers 
have access to the latest research and tools to make their 
farms more productive?
    Mr. Perdue. Certainly.
    Senator Stabenow. Do you think rural small businesses 
should have access to capital to keep them competitive and grow 
their business?
    Mr. Perdue. Certainly.
    Senator Stabenow. Do you believe organic farmers have a 
place in farming?
    Mr. Perdue. I think consumers across the country have 
demonstrated that. I am sorry Senator Leahy had to leave.
    Senator Stabenow. Yes.
    Do you think it is important to feed seniors and children 
in need of assistance?
    Mr. Perdue. Yes, ma'am.
    Senator Stabenow. I indicate all this because these are 
some of the cuts in the budget. These are some of the areas 
that have been zeroed out, like rural water and sewer, or have 
taken severe cuts in the budget, which are deeply concerning.
    In the final moment here, first, did you have any input in 
this budget process? Second, how will you move forward when we 
are looking at these cuts? How would you as Secretary of 
Agriculture address this to be able to meet the needs of rural 
America?
    Mr. Perdue. I think you are probably aware, Senator, 
without confirmation and not being confirmed, I have had no 
input into the budget. Obviously, I think you probably saw it 
before I did. Also having some concern, obviously as a member 
of the administration, I view this budget similar to what I did 
as governor when I got a revenue estimate that I did not like 
as well. I did not like it, but we manage to it. My goal--I 
think you indicated the words in your opening statement that 
you want a Secretary who can be a strong advocate and tenacious 
advocate. If I am confirmed, I want to get under the boards and 
get some room and work for agriculture producers and consumers 
to let this administration and any of the people that are 
making those decisions in that budget area know what is 
important to America.
    I think the President understands that many of his votes 
came from the areas that you are mentioning and referred to, 
and I hope in the context of a balanced or a budget that meets 
the objectives that we can get agricultural share there. These 
are important programs. I recognize that, and I will do 
everything within my power, within the confines of the 
administration, working there to match what our desires are.
    I flippantly say sometimes I grew a $20 billion budget in 
Georgia to $60 billion during that 2003-2011 period of time, 
not necessarily voluntary, but with the dedicated work of the 
civil workforce in Georgia who really worked hard in those 
areas. We did do more with less. Some of that has to do with 
efficiency and effectiveness, which I look forward to engaging 
this USDA federal workforce in and inspiring them that we can 
do more. Obviously, it takes some money in many of these areas, 
and I promise to you I will be a strong and tenacious advocate 
for that.
    Senator Stabenow. Well, thank you, and let me just stress 
again that agriculture has been doing more with less, that was 
our charge, and we met it in the last Farm Bill. But the cuts 
we are talking about here will be really devastating for 
farmers and small towns.
    Mr. Perdue. Sure.
    Senator Stabenow. Thank you.
    Chairman Roberts. Speaking of the budget, Senator Boozman, 
you will be recognized next, but first, we would like to hear 
from the Chairman of the distinguished Senate Appropriations 
Committee and the former Chairman of this Committee. I would 
remind everyone of the saying that everybody knows, ``The 
President proposes and the Congress disposes.''
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you very much for your 
kind remarks about me and my interest in agriculture and the 
obligation that we have as government to ensure the fair 
funding of the important government programs that we see in 
many cases help farmers when they are in desperate straits, 
with weather disasters and other challenges that come along 
from time to time that really could put our country in very 
difficult economic situations.
    So I know you are familiar with most of the programs that 
are authorized by our Committee and first recommended by our 
Committee and passed and signed and nurtured by both houses of 
Congress. You have got a lot of people watching you and urging 
you to do this and that, and I am confident in your leadership 
and your insights, your experiences, all to be brought to the 
challenge of the Office of Secretary of Agriculture. I am 
confident that you are going to do a fine job, and we look 
forward to working closely with you to identify problems when 
they arise and can be addressed in a positive way to suit our 
country's interest, economic interest as well.
    Mr. Perdue. Thank you.
    Senator Cochran. Thank you, Mr. Chairman.
    Chairman Roberts. We thank the distinguished Chairman.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman. Thank you, 
Governor Perdue, for your willingness to serve. I enjoyed 
visiting with you in the office and getting to know you over 
lunch and getting to know more about you and your wife. You 
have got a big job before you, and yet you have a history of 
doing big jobs. We do appreciate your willingness to throw your 
hat in the ring.
    Arkansas is such that agriculture is its number one 
industry, around 25 percent. It is interesting when you look at 
the statistics, though, agriculture, farm income is going to be 
cut from $124 billion to 60--$62 billion, so literally half, 
which is a real problem in much of our states because much of 
our states are rural in nature.
    One of the things, though, that we can lessen that pressure 
is looking for other markets, and in Arkansas, Cuba would be a 
very important market with rice production and various other 
things, poultry. Can you talk a little bit about efforts that 
you would take in the sense, not only Cuba, but other markets 
throughout the world so that we could have the attitude that we 
have got customers here but, very importantly, customers spread 
out all over the world?
    Mr. Perdue. Certainly, Senator. I think in respect 
specifically to Cuba, for those of you on the Gulf Coast and 
those on the East Coast as well as even have been mentioned by 
your colleagues in the upper Midwest, I think we would love to 
have Cuba as a customer in many things.
    I led an Ag delegation from Georgia to Cuba as governor in 
2010, and I found then, as much of the problem there regarding 
demand, was the ability to pay and the ability to finance there 
as much as anything. I think they would love to have our 
products, and they are certainly appropriate customers for the 
rice that Louisiana grows and that Arkansas grows and other 
beans that are edible beans up in the upper Midwest that they 
grow. For that reason, I think if you all could see fit to look 
into the private financing operation, one of the things they 
mentioned to us is that they had to--by the restraints, they 
had to go through Europe and have a haircut, financial haircut 
in that regard of--by being able to purchase the product.
    So I think we have the product they need, and they would 
like the product. I think the real issue that I heard regarding 
Cuba was the financing part, and certainly, that would come 
probably under another area that is not the USDA, but I would 
support their efforts if we could get private financing.
    Regarding other areas, certainly in Central, South America; 
Europe; and Southeast Asia as well, there are new and 
developing markets there, and I hope that we can work very 
closely with the Trade Representative Lighthizer as well as 
Secretary of Commerce Ross in order to put agriculture first in 
their repertoire of things to trade. I believe that we have the 
ability to produce a very efficient crop and products, food 
products as well as other products that clothe and other things 
around the world they need. I look forward. That is certainly 
from visiting with most all of your colleagues. Trade was right 
at the top of the list. I think when you talk to farmers around 
the globe, that is what they are most concerned about.
    We have a worldwide supply-and-demand issue that is 
weighing heavily on prices currently, and we are seeing some of 
the lowest prices in many years. It is putting a lot of pain 
out there, which is a direct result of the financial situation 
that you mentioned in your comments, that farmers are really 
struggling to be profitable, hold on, and many times, even the 
best farmers are not able to produce a product even with the 
best production capabilities they may have.
    So I think trade is really the answer. I look forward to 
being an advisor and a counsel to this administration, U.S. 
Trade Representative, specifically, about the benefit that we 
have of farm products to sell around the world.
    Senator Boozman. No, that is excellent, and as you said, in 
regard to Cuba, the financing really is key. So we actually 
have a bill that says that not government-backed, but if an 
individual or a private bank or whatever wants to do the 
financing, that they will have the ability to do that.
    I am running out of time, but I do want to comment. One of 
the things that I have real concern about--and I think the 
Committee does--is you have the feeding programs in the 
schools. Summer comes, and then you have a bunch of kids that 
do not benefit from that. What we are trying to do is get a 
smooth transition, and if you would just affirm your 
recognition of the importance of that. Those rules that govern 
that transition and stuff have not been changed since the '60s. 
So if you could just in 5 seconds talk about that.
    Mr. Perdue. Certainly. I was able to share with several of 
your colleagues, who had mentioned that privately in their 
offices, that I would love to facilitate that kind of 
transition to make sure that those kids who are able to get 
meals while they are at school are able to continue that 
through the summertime and that they do not fall into a problem 
during that period of time, to keep kids healthy.
    Senator Boozman. Thank you, Mr. Chairman. Thanks, Governor.
    Chairman Roberts. Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman. Thank you so much 
for holding the hearing, and, Governor Perdue, 
congratulations----
    Mr. Perdue. Thank you.
    Senator Bennet. --to you and your family on your 
nomination.
    I was not going to raise it, but Senator Boozman did, that 
is a bill he and I both have together on school lunches, so I 
am glad--in the summer--glad to hear him raise it and your 
comment.
    I also was going to raise trade, and I am so pleased with 
your answer because, as you know, commodity prices are just 
terrible right now for all of our farmers and ranchers. 
Throughout Colorado, our rural communities, which really led 
the recovery for us coming out of this terrible recession, now 
face commodity prices that really challenge them as they are 
trying--as their inputs are higher and higher and higher.
    There was so much negative talk about trade during this 
presidential campaign that I think we are looking to you to 
help resurrect that with respect to agriculture in the United 
States. Eighty percent of the wheat that we produce in Colorado 
is exported. All of the growth for our dairy farmers is going 
to come from trade with countries, many of which were countries 
that were involved with the TPP. Our potato growers in Colorado 
need to have access to these markets.
    So knowing that you will be a zealous advocate for trade on 
behalf of our agricultural sector is enormously important to my 
state, and if there is anything I can do to help you help 
translate that to this administration, I will commit to do that 
to you.
    I also wanted to raise with you the issue of our national 
forests. A lot of people do not know that comes within the 
Department of Agriculture, and you mentioned in your--in your 
statement, the importance of smart stewardship. One place where 
we have not had smart stewardship was with the maintenance of 
our national forests, as you and I discussed when you were in 
my office.
    Last year, we spent over 50 percent--I think it was 60 
percent of the budget, the Forest Service budget, fighting 
fires. We have had--in 2015, the Colorado State Forest Service 
estimated there are around 834 million dead standing trees in 
Colorado. That is up 30 percent from 2008 estimates.
    I have said to my colleagues on this Committee and other 
places in the Senate, if you are downstream from Colorado, 
which almost everybody is, you need to care about what is 
happening in the headwaters of these rivers, and that is 
forests that are managed by your folks, if you are confirmed.
    So let me first say this: Will you please come to Colorado 
and look at these forests firsthand?
    Mr. Perdue. I would look forward to that, Senator.
    I think I mentioned to you I saw the ravages of that 
terrible fire over north of Glenwood that occurred many years 
ago----
    Senator Bennet. Right.
    Mr. Perdue. --with loss of life, and I still see on those 
beautiful mountains there, the effects of forest fire from 
years ago. So, absolutely, I will come and look forward to 
visiting with you, as well as many of your western colleagues, 
mention this is one of their primary areas, so it is a concern.
    Senator Bennet. Well, and I hope--and maybe you could say a 
word about this too. I know Senator Thune and others have been 
concerned about this.
    Every year, Secretary Vilsack has tried to put something in 
the budget to end this fire borrowing process that we have to 
make sure that either we treat these fires like every other 
disaster that we have or that somehow we budget correctly so 
that we can do the mitigation on the front end, because what we 
are doing is we are spending the money in the most expensive, 
least logical way possible. I wonder if you have got a comment 
on that.
    Mr. Perdue. I certainly do, and I have heard you all and 
your colleagues loud and clear over that.
    I also had an extensive conversation with Secretary Vilsack 
about the upside-down portion of the budget there and his 
continual having to borrow to manage those forest fires or to 
help put out those forest fires. That is a bad way to do, as we 
talked about.
    On the front end, as you know, the healthy forests are 
helpful in preventing forest fires, and whether it is the 
underbrush, the deadfall that we have not been able to get to, 
using two-thirds of the budget to fight, we are upside-down on 
that. We need to be doing at least two-thirds there of the 
budget in managing healthy forests in order to prevent forest 
fires.
    So my goal would be to reverse that, and I would love for 
you and your colleagues to consider looking at forest fires, 
like we do many other natural disasters as well, to put a 
funding mechanism in there where, just like hurricanes or 
tornadoes or other things that are--floods--that we use there 
would qualify for those types of funds, because Secretary 
Vilsack was very disheartened by the fact of having to come up 
with millions of dollars many times from other parts of the 
budget and borrowing there. It just did not--it was not very 
effective.
    Senator Bennet. Well, if you can break this Gordian knot, 
you will be a hero in my state and probably some others as 
well. So I look forward to having you in Colorado. Thanks.
    Mr. Perdue. I look forward, Senator, for us to break that 
Gordian knot.
    Senator Bennet. Let us do it. Let us do it.
    Mr. Chairman, thank you.
    Chairman Roberts. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chairman.
    Governor Perdue, thank you so much for being here today, 
and I want to thank your lovely family for joining you as well. 
It is good to see everybody here.
    As some of my colleagues have already stated, the ag 
economy has really been in a downturn the last number of years, 
and a lot of our producers are hurting, especially those young 
and beginning farmers that have just gotten their start really 
in the last 10 years.
    The renewable fuels revolution bolstered demand for our 
commodities, driven by the Renewable Fuel Standard and energy 
programs that were included in the Farm Bill. Trade deals like 
NAFTA helped to fuel both grain and meat exports, which are 
very vital to our producers' profitability.
    As we have seen so many times before, our farmers continue 
to innovate and find new ways to grow more food with fewer 
inputs and have not only met this new demand, but they have 
exceeded it and done quite well, leading to the slump in 
commodity prices we have been feeling so acutely.
    When I travel around the state, I engage in a 99-county 
tour, and I consistently hear how challenging it is to be a 
farmer or a rancher right now, due not only to the low prices, 
but also because of the onerous government regulations.
    I hope you are prepared to work with all of those who are 
engaged in our ag economy to ensure it remains one of the 
strongest in feeding and fueling our growing world.
    Whenever I do visit those farmers and ranchers and others 
within the ag community, one of the common refrains that I hear 
is about federal regulations, especially from the EPA, how they 
are harming their operations and making their lives pretty 
difficult. Whether it is their misguided WOTUS rule or the 
delays in approving ag biotech products, the EPA almost seems 
to have an agenda against those that are in the agricultural 
community.
    How will you collaborate with the EPA to ensure that their 
work is helping rather than hindering our farmers and ranchers?
    Mr. Perdue. Thank you very much, Senator.
    I think, like many solutions, it begins with personal 
relationships. I have taken the opportunity to visit with 
Administrator Pruitt already regarding some of these issues, 
and I think not only in the EPA, but in all agencies, we 
develop silos that are unfortunate because, as you well know, 
many of our producers, when a regulation is made in other 
places, whether it be Labor or EPA or others, are the guys who 
are the ones that get pushed off the boat. My goal is to have 
an ongoing communications team identified with each of these 
agencies. It may be, whether it is FDA, EPA, Labor, OSHA, 
others, to identify the things that would be the--maybe the 
unintended consequences of regulations and to work together 
ahead of time before those regulations are promulgated to give 
us an opportunity in representing USDA, both agricultural 
producers and consumers, to let these other agencies know what 
the impact would be and what the cost-benefit reward would be 
to agricultural producers.
    So I think it becomes--I am kind of a face-to-face sort of 
person. I believe in going directly and communicating 
transparently about the needs and about the desires there.
    I come from the part of the world that has seen our farmers 
as good stewards. I think they want to be. If they have the 
right tools, from a conservation perspective, they want to care 
for the land. They are the ones that are making their living 
out there, and I believe they want to do that. Rather than 
prescriptive, onerous-type regulations, let us give them the 
ability to do that and incentivize them in a way where they can 
be even better than they have been in the past.
    But the progress that you indicated that we have made over 
the last several years with doing more production with less 
inputs, precision agriculture, better use of water, and those 
kind of things, and no till, all those sorts of things, 
preserving our soil, our producers have done a good job at 
that. They want just kind of a fair shake in being able to 
produce without the onerous prescriptive type of regulations 
that harm their ability to continue to perform.
    Senator Ernst. Well, I appreciate that very much, and I 
certainly support your willingness to work with the other 
Departments and heads of those agencies. We simply cannot 
operate in a vacuum, and developing those relationships and 
keeping those relationships is very important. I think you are 
absolutely the right person to do that, so I appreciate that 
very much.
    I also just want to make a comment too. I know that in the 
2014 Farm Bill, Congress really recognized the importance of 
trade, and Congress directed the USDA to establish an Under 
Secretary for Trade and Foreign Agricultural Affairs, and I 
hope that you will take a look at that make sure that we have 
the right person for that job established as well.
    So thank you very much, Governor. It is good to see you.
    Thank you, Mr. Chair.
    Mr. Perdue. Thank you, Senator.
    Chairman Roberts. Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Thank you, Governor, for being here. Thank you for our 
meeting that we had previously.
    I want to talk a little bit about immigration. It has been 
an issue, unfortunately, that has had a very toxic debate that 
has been harmful in our state. One area where it is 
particularly harmful is in agriculture because we rely on 
immigrant labor for a lot of our fruits, vegetables, and dairy. 
I hope that you can speak to President Trump and Secretary 
Kelly about the effects of immigration enforcement policies and 
priorities that the President has announced and how it impacts 
our agriculture sector.
    It is estimated that about 50 percent of agriculture 
workers are immigrants, and so if we do not have proper 
immigration reform and a debate about holistic policy, it is 
going to harm families in New York, and it is going to harm 
agricultural workers at our farms throughout Upstate New York 
and Long Island.
    So I ask, Will you make a comment that you will work 
towards making sure our farms have the workers they need?
    Mr. Perdue. I will certainly commit to you that, Senator. 
Particularly in your dairy industry in Upstate New York and 
others, just as Senator Leahy has mentioned, that is not a 
seasonal job, and I think if you go into dairy barns around the 
country, you are going to find most of the time, those cows are 
being milked by immigrant labor. I do plan to be a voice in the 
administration to persuade policymakers there over this issue.
    I recognize that many of our producers, both seasonal types 
of crops that you mention as well as dairy farms, have a good 
bit of anxiety about that, considering that, and I will 
absolutely commit to you.
    Senator Gillibrand. Enormous anxiety.
    The other area, as you mentioned, our H-2A program is a 
visa program to recruit temporary workers on a seasonal basis. 
Cows need to be milked every day. So it does not work for us. 
It is very cumbersome, it is difficult, and so I would also ask 
your commitment that you will work on that program specifically 
to streamline it and make it available for all agricultural 
workers.
    Mr. Perdue. Senator, I have heard that loud and clear from 
people close to me at home and our customers there in Georgia 
as well.
    You mentioned, obviously, your state, but I think virtually 
every state in the Nation is affected by that to some degree. I 
think there are some things that we can do with H-2A, and if I 
am confirmed, I will commit to you that that and trade are two 
issues that we will begin posthaste to work on.
    Senator Gillibrand. So, as you know, we are a significant 
dairy state. We are the third producer--fourth, I think, most 
recently, in the country, and I would love it if you would come 
to Upstate New York and do a field hearing. I know you have to 
go to Colorado now, but could you please also come to Upstate 
New York? We would love to have a field hearing to talk about 
dairy pricing because the dairy pricing system, as you know, 
has been so destabilizing and is not something that farmers can 
rely on. The insurance programs we have written are not 
working. So we really need to do a top-to-bottom reform of how 
we do dairy pricing in this country and create insurance 
programs and products that can actually work for small dairies, 
particularly in places like Upstate New York.
    Mr. Perdue. Senator, I will come if you promise not to make 
me milk any more cows.
    Senator Gillibrand. No, you do not have to milk. I promise.
    Mr. Perdue. But you are right, though, the volatility of 
prices--and there is no business--not just agriculture, but 
there is no business that can survive with the volatility of 
range of prices that dairy farmers have had to undergo the last 
few years. They had some high prices, but the prices they are 
currently experiencing are just unprofitable, and even the best 
family farms cannot survive under those.
    Senator Gillibrand. I agree.
    Another issue very important to New York State is the SNAP 
program. It is so important that we have food for our families. 
Some of the work this Committee has done for making sure SNAP 
gets to rural families using farmers markets, making sure that 
we can do summer meals, that kind of work, I would ask your 
commitment to focusing on how we can deliver more food to more 
families throughout this country as our Ag Secretary.
    Mr. Perdue. We hope that we can do that even more 
efficiently and effectively than we have. It is certainly 
important to the children and the families of America to do 
that, Senator, and I hope that we can work together to 
accomplish that.
    Senator Gillibrand. Thank you.
    My last issue is funding and budgets. I was very concerned 
about the President's budget and how it would take away access 
to water systems. We have so many unmet sewer needs in New York 
State. Our rural water systems are in desperate need of 
investment.
    Similarly, we have desperate need of investment for rural 
broadband. It is really important that we can get high-speed 
Internet to all our rural areas. Our farmers depend upon it. 
Our small businesses depend upon it. The USDA Rural Utilities 
Service Program is really important, so I would like your 
commitment that you will continue to work with this Committee, 
which has bipartisan support for those investments.
    Mr. Perdue. Certainly. I am hopeful, obviously, that the 
President's proposal over infrastructure, it will be recognized 
that the agricultural broadband issue--if we are going to keep 
kids on the farm in rural areas, if our rural areas are going 
to be able to thrive and survive like cities do with the 
density, we have got to have the connectivity. It is just as 
important really now as sewer or water, clean water, or other 
things, is the connectivity to the world.
    Senator Gillibrand. Yep.
    Mr. Perdue. That is what we are advocating, will advocate, 
continue to advocate. I know members of the USDA have already 
been in a meeting with the White House infrastructure team over 
that, and we will certainly promote that to the best of our 
ability.
    Senator Gillibrand. Thank you.
    Chairman Roberts. Well, Coop, it is time for you, sir.
    Senator Thune. Thank you, Mr. Chairman. It is almost high 
noon, so it is time for me to ask questions.
    But thank you, Governor Perdue, for taking this on. You are 
the right guy for the job. These are tough times in 
agriculture. We have got commodity prices and livestock prices 
below the cost of production, uncertainty about trade, concerns 
about disease, and two crop years left in terms of 
implementation of this Farm Bill before we start writing a new 
one, and I look forward to working with you on the next Farm 
Bill as well as continuing to implement this one.
    I know we will not have any problem getting you to come to 
South Dakota as long as we still have pheasants in South 
Dakota, so I expect you to be there.
    I have got a number of questions that I need to cover 
quickly, so if you could just answer yes to all of them, that 
would be fine.
    [Laughter.]
    Senator Thune. In terms of the current Farm Bill, the past 
administration showed a lot of inflexibility with regard to 
administration in a number of areas--the commodity title, Title 
I, the ARC payments, and the data that was used to calculate 
those payments. CRP vegetative cover management practices and 
equitable CRP acreage distribution were all things that--where 
we do not think the past administration was following the 
intent of Congress.
    So with two years left on that Farm Bill, will you be 
willing to work with me and my staff on these issues to make 
improvements in program administration and make sure those 
programs are operating in the way in which Congress intended?
    Mr. Perdue. Yes.
    Senator Thune. Thank you.
    Governor Perdue, I know you are aware of the recent tainted 
Brazilian meat scandal, which has resulted now in USDA issuing 
a press release announcing additional steps that they are 
taking to ensure that our food supply is kept safe. None of the 
facilities implicated in that scandal, the Brazilian meat 
scandal, have shipped meat to the United States according to 
USDA, but--and the question is, Do you believe that accelerated 
testing of all the incoming shipments of raw meat from Brazil 
will provide adequate protection, or should we begin to think 
about triggering USDA to impose an outright shutdown if there 
is unsafe meat?
    Mr. Perdue. Senator, I believe that the men and women of 
the FSIS are doing a wonderful job, going to the 100 percent 
inspection there coming in. I am concerned, obviously, if we go 
to embargoing at this--where these plants were not shipping to 
the U.S., if we go to embargoing or putting a shutdown on 
there, there will be retaliation there for our products or 
maybe around the world as well.
    We already know that we have had some high-path avian 
influenza, and some countries have responded in that way. So 
while that is very, very localized, I do not want to punish 
another country, but I do want USDA inspectors to be on the job 
with 100 percent type of inspection of any products coming in, 
into the United States.
    Senator Thune. Okay. We both come from states where we grow 
trees. The trees in South Dakota grow a little slower than the 
pine trees do in your home state, but in the last half decade, 
we have seen a rapid increase in mortality--it is up 53 
percent--and a decrease in growth, down 69 percent in our 
state. Unfortunately, our situation is not unique, with over 82 
million acres of national forests under stress from fires, 
insects, or both, and I know that Senator Bennet touched on 
this. But can I get your commitment to focus on turning around 
the national forests and expanding the management that we need 
to create jobs in healthy stands of timber?
    Mr. Perdue. Senator, absolutely, you can have my 
commitment. I think that the--I view the United States Forest 
Service and our United States forests as challenges, 
opportunities clothed in challenges right now, and I think 
there is real opportunity to make these forests healthy.
    I do come from a state where it is mostly private 
ownership. My sense from visiting with many of you is that we 
have just not really been good neighbors in a lot of places in 
taking care of the public stewardship portion where many 
private landowners would. So I look forward to having those 
best management practices leading and inspiring the United 
States Forest Service to take pride in the way they would care 
for it, just as if it was their own.
    Senator Thune. Okay. Thank you.
    I know this got touched on once already as well, but 
agriculture, of course, helps build a strong U.S. economy. It 
is a number one industry in my state, but I think it is 
critical to our national economy and especially in our rural 
communities. The RFS has been an essential driver of growth in 
rural areas of our country, and the certainty of the policy has 
created jobs and spurred added research and investment. Can you 
commit to ensuring that we will have a strong RFS to provide 
economic security for these rural communities?
    Mr. Perdue. I can do that, and I am happy to have the--also 
the President's commitment, of his concern and interest in that 
area as well, so you absolutely can have that commitment.
    Senator Thune. Appreciate that.
    My time has expired. I thank you again for taking this on. 
We look forward to working with you, and not only on, as I 
said, this Farm Bill, but the one to come, which we will be 
getting started on very soon. Thank you.
    Mr. Perdue. Thank you, Senator.
    Chairman Roberts. I thank the Senator. I know he has a date 
at high noon. So you can excuse yourself at any time.
    Senator Heitkamp.
    Senator Heitkamp. Terrific. Thank you, and I thank my 
colleagues who probably went out for a cup of coffee or 
something else, who stood ahead of me in line.
    Governor Perdue, welcome, and welcome to your beautiful 
family. What a legacy you leave. I think there is someone who 
looks a whole lot like you back there. I kind of looked. You 
used to be a lot more handsome when you were younger, I think.
    Mr. Perdue. It was the first human cloning, I think, there.
    [Laughter.]
    Senator Heitkamp. It is pretty remarkable. I was checking 
it out. I am thinking wow. That is--well, you used to be very 
handsome, I might add.
    [Laughter.]
    Senator Heitkamp. I want to associate myself with the 
remarks of Senator Thune, who talked about the importance to 
really have flexibility as we implement the next Farm Bill. We 
saw some great flexibility, but then we ran into some 
roadblocks. I appreciate your commitment.
    I also know that we were visiting, when you entered my 
office and you said three words, ``Trade, trade, trade.'' I 
knew that you and I were on the same wavelength, that is a 
critical component.
    But my concern is what we are seeing really out of the 
White House and out of the budget does not seem to be pro rural 
or pro agriculture, and so we need you to be an absolute 
voracious and active fighter on behalf of rural America in that 
White House and with other agencies such as EPA and OMB and the 
USTR. Can you commit to doing that?
    Mr. Perdue. Agriculture is in my heart, and I look forward 
to fighting for the producers of America, just because, as I 
said that, we know how vital it is, and I will absolutely be a 
tenacious advocate and fighter where necessary to do that.
    Senator Heitkamp. I hope that you will engage us. We are a 
very bipartisan, collaborative committee, and we all represent 
agricultural states, but we also know how vital--as Senator 
Thune said, how vital agriculture is to our national economy.
    A couple unique North Dakota issues, we have a lot of 
prairie potholes. It is part of what we do in terms of the 
resource, and it provides for some great duck hunting and geese 
hunting, but we have a lot of farmers who would like an 
opportunity to farm their land and not just raise ducks. I 
think one of the problems that we have--it is not only running 
into maybe an attitude sometimes, that the wetland is more 
important than the farmer, but also not having enough staff to 
do the work that needs to be done in order to make the 
determination within USDA. Can you commit that you will staff 
up so that we will not have farmers waiting to find out if they 
can tile their land?
    Mr. Perdue. Not only staffing up, but I also think the 
relationship, as we talked about earlier, with the 
Administrator of EPA to make sure that our producers and 
farmers do not get caught in some of these unintended 
consequences of rules that have gone awry in a confiscatory 
type of way, because that is very important. As they try to be 
compliant, sometimes they get caught into a web of rules that 
are very onerous, and I will not only try to provide the staff 
that they could do good conservation or good soil preservation, 
but to work with our Administrator at EPA to do that as well.
    Senator Heitkamp. We love our neighbors to the north, but 
sometimes we would like maybe a little tougher enforcement on 
some of the grain standards. We have been working on a project 
out of my office as it relates to the treatment of our grain, 
which becomes feed category as opposed to what it really is, 
which is good quality wheat. Of course, we offer a different 
opportunity for Canadian grain that comes south. Can you commit 
to working with the USTR to change their policies and to 
prevent discrimination against grain going to the north?
    Mr. Perdue. Certainly. I think this is one of those areas 
where many people have talked about the benefits of NAFTA. I 
think as we look at that, I think there are some inequities and 
some unilateral issues during that, cattle, and some milk 
products that we can look certainly to our neighbors to the 
north, which we have a great relationship, but we just want to 
make sure that it is a fair proposition for all.
    Senator Heitkamp. Great. The sugar program is critical. I 
am not sure--I have not been here for the whole hearing. I do 
not know if anyone has raised this with you, but it has been a 
program that has guaranteed a steady supply of sugar to this 
country. I think it is done equitably. It does not cost the 
United States taxpayer really anything, but yet it provides, a 
value-added opportunity in my community and my state and many 
states across the country. Will you continue to commit to 
supporting the sugar program as it has been in the past?
    Mr. Perdue. Senator, if confirmed, I will commit to you 
that I will look at that in the farm program going on and will 
commit to support the best benefit of that. I think also that 
is another issue where maybe trade to the south, we need to 
look at some of the issues over sugar inequities that may be 
coming into the country that have been harmful to your growers.
    Senator Heitkamp. I was kind of hoping for a yes, but I 
guess I got a maybe.
    Thanks so much, Governor, and congratulations on your 
nomination.
    Mr. Perdue. Thank you.
    Chairman Roberts. Senator Perdue.
    Senator Perdue. Mr. Chairman, for the sake of the Republic, 
I am going to withhold questions today. Thank you.
    [Laughter.]
    Chairman Roberts. It would appear that it would be Senator 
Strange. Welcome to Committee, sir.
    Senator Strange. Well, thank you very much, Mr. Chairman. 
It is an honor to be the first Alabamian in over 20 years to 
serve on the Agriculture Committee, and I look forward to 
serving with you and my colleagues on the Committee.
    I am especially pleased to welcome you, Governor Perdue, 
this morning. It is nice to have a potential Secretary, I am 
sure future Secretary, who speaks the same language that I do, 
as your neighbor to the west. I have enjoyed watching you in 
your career, and I look forward to working with you.
    I am going to also spare the Committee lengthy questions 
today. I have a number that we talked about privately.
    I do want to just build on something that Senator Ernst 
mentioned. For the last 6 years, I was honored to be the 
Attorney General of our state, and I got to work very closely 
with our now EPA Administrator Scott Pruitt. We spent a lot of 
time litigating against the Federal Government and its 
overreaching federal agenda, as we saw it. We were successful 
in a lot of cases. One of the things that I took away from that 
experience--and I have discussed this with Administrator 
Pruitt--is the lack of cooperation, if you will, between the 
federal agencies that affect the agriculture world and our 
constituents.
    Agriculture is the biggest part of our economy in the State 
of Alabama, as you well know, because we share many of the same 
industries--forestry, catfish farming, and all types of other 
farming activities. The lack of cooperation between those 
agencies was very frustrating to our farmers.
    What I am hoping that you will do is follow through with 
your commitment to Senator Ernst to make sure that you as the 
Secretary of Agriculture are communicating with Administrator 
Pruitt and others so that we are eliminating unnecessary, 
inefficient, and really inconsequential barriers to our 
farmers, so that they can produce the products that we need in 
this country and internationally.
    So I appreciate your comments to her. I do not have another 
question for you right now. I can submit some others later, but 
that is of particular concern to me because it is a real-world 
concern to the people who have to live under the regulations 
that we pass here in Washington.
    Mr. Perdue. Thank you, Senator. Just like I mentioned to 
Senator Ernst, if I am honored with confirmation, that is 
really one of the things I look most forward to because we have 
seen that, the harm that it causes when one agency looks like 
they are working at cross-purposes of another. I think from 
the--we are all Americans, and we are all beneficiaries with 
all these agencies. I really look forward to developing the 
relationships, mutual, respectful relationships with other 
Department heads and other agencies that can communicate 
possible unintended consequences, so thank you for mentioning 
that.
    Senator Strange. I look forward to continuing to work with 
you as you assume your responsibilities.
    I also wanted to welcome your family, your beautiful 
family, and thank you for your public sacrifice. The family is 
a partner in this venture, as I well know.
    Thank you.
    Mr. Perdue. Thank you.
    Chairman Roberts. Senator Donnelly, you were AWOL last 
night at the marine mess night. So I want a written response 
back to me as an excuse, but I am going to recognize you, 
anyway. Senator Donnelly.
    Senator Donnelly. Well, I was afraid you were going to send 
me to Iwo Jima, sir, so--which would have been a great honor.
    Governor Perdue, one thing I want to ask you, I noted that 
you played football for the University of Georgia, and on 
September 9th in the State of Indiana, in Notre Dame, Indiana, 
Georgia is playing Notre Dame, my alma mater. I want to invite 
you to the game. We would like to have you there. We will have 
a big pork barbecue in your honor. We will have all the Indiana 
farmers there, and you can see the Irish beat the Bulldogs. 
Would you like to come?
    [Laughter.]
    Mr. Perdue. I will accept that invitation, except for the 
last clause there.
    [Laughter.]
    Senator Donnelly. I wanted to talk to you a little bit 
about crop insurance. It is critically important to my state. 
It is something that we are going to be working on in the Farm 
Bill, and to my farmers in Indiana, that is something that they 
want to make sure stays strong and stays protected. I wanted to 
get your views on that.
    Mr. Perdue. Thank you, Senator. I thought you all in the 
2014 Farm Bill made a lot of progress in the crop insurance 
area.
    Obviously, it can always be refined and be made better, but 
it is vital to farmers, good producers there that need that 
safety net of both the risk of production and pricing that you 
all did so well in that area, and I hope we can even continue 
that and enhance that and, as some of your colleagues have 
mentioned, look at risk management proposals and other 
commodities that make sense.
    To me, I think the American taxpayer gets a good value for 
that, and hopefully, we can work together. I look forward to 
working with you all as we continue, if I am confirmed, to make 
sure that the crop insurance program is sound, solid, and a 
good economic value for both--not only the producers, but the 
taxpayers as well.
    Senator Donnelly. One of the things that we are all 
shooting for, I know in Kansas and Michigan and Indiana and 
Mississippi, is for growth of our rural areas and maximizing 
economic opportunities there. That is a passion of mine to make 
sure--we have 92 counties--that every county has a chance, 
every community has a chance, the chance to buy a home, raise a 
family, take a vacation, retire with dignity.
    The Secretary of Agriculture plays a huge role in rural 
communities especially. We need to make sure our rural 
communities have broadband, so companies located there can 
compete with those across the world, and that they have the 
same access to educational opportunities that our children do, 
as in the cities, to expand market opportunities. I want to 
make sure that as Secretary of Agriculture, you look at this in 
a way that you will be looking at things like broadband and 
others to maximize economic opportunities for our rural 
communities.
    Mr. Perdue. Certainly. Not only broadband, Senator, but the 
opportunity the USDA has in rural development in so many other 
areas. I mean, the vitality of our small communities around 
your state and all these states really depends on a strong 
agricultural economy, but the USDA has in the past with its 
Rural Development Program--has been able to help communities 
maybe just not--just get them over the line to do some things 
they wanted to do, whether it is health care or other types of 
things to do that. That is one of the great benefits that I 
look forward to being able to do, if confirmed, to make the 
lives of people across America, particularly in rural areas, 
better because of the presence of the USDA.
    Senator Donnelly. One other thing that--we work on a lot of 
conservation programs. We are very, very proud of our cover 
crop programs. I think we are first in the Nation with that, 
and as our Chairman and Ranking Member always talk about, 
nobody cares about the environment more than the farmers and 
the families that live there. We want to make sure that as you 
look at your job going forward, you are going to commit to work 
to support and improve the conservation programs as well.
    Mr. Perdue. Certainly. The NRCS is a big part of American 
agriculture, and as more farmers learn how to preserve and care 
and create clean water, reduce runoff, use more efficient use 
of water and irrigation and precision agriculture, those are 
the research arm of USDA and the extension arm pushing those--
that education information out. It is critical to continue to 
improve.
    The good thing, what I like about farmers is they are all 
about continuing improvement----
    Senator Donnelly. Right.
    Mr. Perdue. --and they are competitive. They want to do 
better each and every year.
    Senator Donnelly. I apologize. I am running out of time, so 
I wanted to ask one last thing. The USDA has worked to increase 
access to treatment for opioid and heroin abuse in rural 
communities. It is breathtaking. They have assisted in creating 
transitional housing, funded initiatives to improve education, 
and raise awareness to the dangers of this. Purdue has been an 
amazing partner in all of this, and I want to make sure that 
the USDA is our partner in this, in this critical battle 
against opioid and heroin abuse.
    Mr. Perdue. Secretary Vilsack and I had an extended 
conversation about the ability just to do that. That was one of 
the things that I was mentioning, an ability of USDA in its 
rural development program to add value in rural communities, 
even the areas of health care, so certainly.
    Senator Donnelly. Thank you.
    Mr. Chairman, Marines are my heroes, and I would be honored 
to go to the mess with you. Anytime you want to bring me, I 
will be your wing man, sir.
    Chairman Roberts. Semper Fi.
    Senator Daines.
    Senator Daines. Thank you, Mr. Chairman, Ranking Member 
Stabenow.
    Governor Perdue, thank you so much for your willingness to 
step up and to serve as our next Secretary of Agriculture. This 
is a big deal from my home State of Montana because agriculture 
is our state's number one industry. It is $6 billion a year 
back home. Without agriculture, Montana does not have a strong 
economy.
    Our farmers, our ranchers, they produce wheat, barley, 
cattle, sugar beets, pulse crops. In fact, we are the Nation's 
leading producer of pulse crops now, which has been an exciting 
development to see in our state as we diversify our ag 
portfolio. Our products play a critical role in not only 
feeding our country, but certainly feeding the entire world.
    Ag production across our Nation is diverse. Montana ag 
presents some unique and especially specific challenges, but 
great opportunities. With that in mind, I want to make sure I 
extend an invitation to you, Governor Perdue, to come out to 
Montana. We are going to have an Ag Summit May 31st and June 
1st in Great Falls, which is kind of Ground Zero of our ag 
economy in Montana. We would love to have you consider coming 
out. If nothing else, we do some preseason elk scouting there 
too for the fall, but we would love to have you come out.
    Mr. Perdue. Well, I welcome that opportunity.
    Senator Daines. Regarding trade, 95 percent of the world's 
consumers are outside the United States. Certainly, we have 
more spending power today on a per capita basis, but as we 
think about the longer term, as Wayne Gretzky famously said, 
``Skate to where the puck is headed, not where it is at,'' 
trade becomes very important, I think, not only for today's 
generation, but future generations of farmers and ranchers.
    We are seeing low commodity prices, declining farm incomes. 
I had my barley and wheat producers in my office the last 
couple weeks, our cattle producers. It is a pretty tough 
climate right now because of low prices.
    The access to foreign markets for long-term growth in ag, I 
do not think can be overstated. Vast amounts of our wheat, our 
beef, our barley, pulse crops are exported every year, and that 
helps us in this price arena, helps create jobs, helps grow our 
economy.
    Governor, as Secretary, how will you ensure that Ag's voice 
is heard loud and clear within this administration, to fight 
for our farmers and ranchers, to ensure we have access to new 
markets abroad, and not face retaliation?
    Mr. Perdue. Thank you, Senator. I think the good news is we 
have got a growing middle class around the world that is hungry 
for those products, and food is a noble thing to trade. As I 
have indicated several times before, we have got a great story 
to tell. We have got producers here that can produce more than 
we need to consume. That is not the case in many parts of the 
world. So why don't we use that bounty to supply one of the 
fundamental needs of mankind around the world, and I will 
continue tirelessly to advocate that within our administration 
and in conjunction with you all in development.
    I plan to be on site as USDA's chief salesman around the 
world to sell these products and negotiate these deals side by 
side with USTR, side by side with Secretary Ross, and our whole 
team there. I believe that USDA will be intimately involved in 
the personal, on-the-ground, boots-on-the-ground negotiations 
at tables around this world with ag ministers and foreign 
dignitaries there selling our product.
    Senator Daines. I know that will be music to the ears of 
Montana farmers and ranchers to have an advocate like yourself, 
and I think as a governor, you bring that unique experience of 
having to be the chief salesperson certainly on behalf of your 
farmers and ranchers across the world.
    I want to shift gears and talk for a moment about forest 
management and reform. Of course, we always refer to this 
Committee as the ``Ag Committee,'' and that has always been one 
of our highest priorities, but it is the Agriculture, 
Nutrition, and Forestry Committee. Back home in my state, one 
of my highest priorities is restoring active management to 
Montana's national forests. Unfortunately, excessive federal 
regulations, laws, we have chronic litigation from extremist 
groups, have limited our management of our national forests, 
and a healthy forest is a forest that is actively managed.
    Even projects that we move forward through collaboration, 
bringing sportsman groups, conservation groups, folks from the 
logging industry, we move forward and were litigated at the end 
and go--and oftentimes lose our cases before the Ninth Circuit, 
as they unfortunately have continuous litigation.
    Unfortunately, we have a recent Ninth Circuit decision 
called the Cottonwood Environmental Law Center v. the Forest 
Service. It has added another layer of unnecessary red tape and 
is threatening dozens of forest management projects. The 
Supreme Court will not hear this case, unfortunately, but we 
think we can change the outcome here statutorily, and I have a 
bipartisan support for this legislation. I would ask, Would you 
work with me to reverse this disastrous decision that we have 
seen from the Ninth Circuit?
    Mr. Perdue. Senator, if confirmed, I would welcome the 
opportunity to work with you. I have seen your legislation, 
proposed legislation. I agree with it wholeheartedly. I think 
at some point, you have got to say the end is the end, and 
rather than stopping things that have been agreed to with 
continuing legislation--or litigation, rather, is just 
unproductive and creates what you talked about by unproductive 
and unmanaged forests. At some point, we have got to say, 
``That is it. We have done that. We have made a decision, and 
we are moving forward.''
    Many of your colleagues already have NEPA-approved projects 
that we have not gotten to yet. That is a top priority, but 
then to continue to move forward.
    I am hopeful, Senator, that as we demonstrate good 
stewardship and good management of the U.S. forests, the 
litigators on the other side will see this is good, this is 
productive, forests are renewable, they are healthy, they are 
better. They are better for everyone when they are managed well 
rather than just to lie out there and die upon themselves. So, 
hopefully, we can do that.
    Senator Daines. Well said, Governor. Thank you.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Thank you, Governor. I enjoyed our meeting in our office, 
and as you know, Minnesota is fifth in the country for 
agriculture. We discussed the differences, which you are well 
aware of, of the Southern and Midwestern agriculture.
    Some things in common, one of them may be birds. As you 
know, we were hit by the avian flu hard in the Midwest and 
around the country. As a result, almost 9 million birds died, 
causing economic losses of $650 million. Given the recent 
detections in Tennessee, Alabama, and Wisconsin, are you 
prepared to respond immediately to prevent the possible spread 
of the disease, if and when you are confirmed as Secretary?
    Mr. Perdue. Certainly, Senator. As you know, the poultry 
production of this country is amazing. The whole ecosystem that 
has been developed around that protein, being able to export 
worldwide, whether it is eggs or poultry protein, is critical. 
I am very proud of the work that I have seen that the USDA has 
done in Tennessee in their very quick confinement and working 
cooperation with both States of Alabama and Tennessee, and I 
think the hardworking people in that animal health area have 
done a wonderful job. I think they learned a lot from the 2015 
outbreak, where we might have been a little slow there. They 
got on this very quickly, and we are praying that that is 
confined. So, certainly, we cannot afford an industry such as 
our poultry industry and any sector to be affected by the 
damages of a very severe high-pathogen avian influenza.
    Senator Klobuchar. But what if the proposed 21 percent cut 
to USDA went through? Do you think this could still be the 
priority that it is? How would you manage it if it comes?
    Mr. Perdue. Well, I am hoping that we can work with you and 
the appropriators. We understand what the President's proposal 
is, but I hope that you all will help in looking at the keepers 
of the purse.
    Senator Klobuchar. A different amount of money, thank you; 
that is a good answer.
    I am the lead sponsor of this Senate bill to end the 
embargo with Cuba, and how would you respond to farmers who are 
concerned about the administration cutting off opportunities 
for American business in Cuba or somehow changing President 
Obama's executive order? I mean, we would like to go further, 
of course, and pass legislation, but we are where we are right 
now.
    Mr. Perdue. Again, I have answered earlier that I think if 
we can get the private financing done there--and there are some 
proposals already to do that--I think American agriculture, 
both in the Upper Plains and the Gulf Coast and the East Coast 
have a wonderful opportunity. That is a country that is hungry.
    I led a delegation there in 2010 from Georgia, and they 
wanted our product. They just could not afford it and pay for 
it there based on the financial crisis that they were in. So, 
hopefully, we can mitigate that.
    Senator Klobuchar. I know Senator Thune asked you about the 
RFS, and will you work to advocate for a strong renewable fuel 
standard during interagency review with some of your other 
Secretaries?
    Mr. Perdue. I will.
    Senator Klobuchar. Okay. That is a great answer too.
    The dairy program, what would you do as Secretary to ensure 
the resources needed are available for the Margin Protection 
Program to be a meaningful safety net for dairy farmers?
    Mr. Perdue. Thank you, Senator. I think we have--I have 
heard some recent ideas recently that, hopefully, will even 
enhance that Margin Protection Program with a risk management 
program for immediate relief as well as possible solutions for 
the 2018 Farm Bill. The volatility of the prices that we have 
seen in dairy are just unsustainable, and you have got not only 
family dairy farms, but large dairy farms that are just 
unprofitable. Many of them do not have the equity to continue 
in that area, and it will change their whole lives.
    Senator Klobuchar. Thank you very much.
    Senator Daines was just discussing forestry with you. In 
the 2014 Farm Bill, I worked on expanding the Good Neighbor 
Authority that gives the Forest Service additional flexibility 
to work with willing state and private landowners to implement 
forest management practices. Will you commit to ensuring the 
Good Neighbor Authority and other tools to improve forest 
health from the 2014 Farm Bill are fully implemented and 
emphasized as we continue to work on the next Farm Bill?
    Mr. Perdue. I love that name, ``Good Neighbor,'' and that 
is what I hope that we can become. I think, again, where the 
U.S. Forest Service becomes a welcome part of the community in 
dwelling there and working with the private citizens there, not 
only for jobs, but for good forest management and just 
literally being good neighbors, there is not a better way to 
say that.
    Senator Klobuchar. Thank you.
    Lastly, I am the Co-Chair of the Senate Broadband Caucus, 
and I also am on the Commerce Committee. You and I talked 
briefly in my office about the importance of broadband in rural 
areas. Do you want to just end with that and what you would 
like to see there coming out of USDA?
    Mr. Perdue. I would love to see it, get it done all across 
this country. With the infrastructure proposal, we are going to 
have a seat at the table there. The White House has already 
asked USDA for their ideas about that. That is number one----
    Senator Klobuchar. Thank you.
    Mr. Perdue. --as well as water resources as well.
    Senator Klobuchar. Okay, very good.
    Mr. Perdue. Thank you.
    Senator Klobuchar. Thank you very much, Governor.
    Chairman Roberts. Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    Governor Perdue, it is great to see you. I want to welcome 
you and Mary and your beautiful family.
    Mr. Perdue. Thank you.
    Senator Hoeven. Thanks for being here and for your 
willingness to serve.
    I chair the Ag Appropriations Committee, and so I want to 
express my appreciation for Senator Klobuchar's question, and 
even more, I want to express my appreciation for your answer. I 
look forward to working with you on that very important issue.
    Also, one of our former colleagues, Senator Mike Johanns, 
as you know, was an outstanding Secretary of Agriculture, and 
he visited North Dakota on several occasions. I want to ask if, 
in fact, you would be good enough to show up and visit our 
farmers and ranchers in North Dakota who do a fantastic job and 
would love to see you.
    Mr. Perdue. What is the record, Senator?
    Senator Hoeven. You know, I do not know, but I know Johanns 
was there multiple occasions, and you cannot let him show you 
up. So I need a commitment that you are coming.
    Mr. Perdue. I look forward to surpassing my mentor.
    Senator Hoeven. I appreciate it.
    Can you build the coalition we need to build North, South, 
and Midwest to pass a strong Farm Bill that really works for 
our producers?
    Mr. Perdue. I believe we can. I think in working with you 
all and you working on behalf of your constituents, I think 
that we can.
    I think there was a great progress made in the 2014 Farm 
Bill. We know that we have got a couple of areas that felt left 
out, and we talked about those today. I think that we can get 
ahead of that. It is even more critical today in the light of 
commodity prices and where they are that we get a safety net 
not only for our producers, but also our consumers in going 
forward. So that is a challenge I look forward to, Senator, if 
I am confirmed, to work with you all and providing the 
resources and enabling you all to get a Farm Bill that will be 
embraced by American agriculture.
    Senator Hoeven. But you agree it takes that North, South, 
Midwest coalition to get it done?
    Mr. Perdue. Oh, absolutely, as well as our nutrition people 
as well.
    Senator Hoeven. Do you also agree that it is the heart and 
the soul--and you kind of were going here in your answer, but 
the heart and soul of risk management comes down to that 
countercyclical safety net, building on ARC and PLC, and then 
making sure we strongly, strongly support crop insurance as a 
risk management tool. Do you agree with that, and do you see 
that as the heart and soul of risk management for our----
    Mr. Perdue. Certainly. Absolutely. A well-run, well-
managed, well-designed, well-administered program in that, I 
think, gives farmers a lot of confidence.
    Senator Hoeven. Then talk a little bit about the importance 
of ag research. We have talked about the importance of trade, 
and I absolutely agree with that, but ag research is making 
such a difference in the crops we can grow, disease resistance, 
our yields, which lead to profitability. Talk a little bit 
about your willingness--and this goes back to the budget issue 
as well, but talk about your commitment to ag research.
    Mr. Perdue. You know, it is interesting. We talk a lot 
about high-tech manufacturing. I would submit to the President 
and anyone that our agricultural sector has been the highest-
tech manufacturing industry we have had in this country for 
several years. The phenomenal growth in productivity with less 
inputs and less water and better management, better soil 
preservation is actually phenomenal. It is really--it is really 
wonderful, and the basis of that, as you said, is not only good 
basic research in our land-grant universities and others, but 
the transmission of that information through our extension 
service as well.
    Senator Hoeven. Are you committed and willing to support 
the sugar program?
    Mr. Perdue. I have, as I mentioned earlier, and certainly, 
I think you all have done a great job in the past in the sugar 
program, and for those who grow the beets as well as the cane, 
I think you all--they have come together with a pretty unified 
front.
    Senator Hoeven. Talk about trade. I mean, it looks to me 
like we are in kind of a new era on how we are going to do 
trade. Clearly, the administration likes bilateral agreements 
over the larger group agreements, which can work, but really 
important that we continue to press the trade issue. How do you 
go about doing that as Ag Secretary leading the world of 
agriculture?
    Mr. Perdue. I think speedily, I think, because our farmers 
cannot----
    Senator Hoeven. Right.
    Mr. Perdue. --cannot wait very long. The TPP had been 
around for a while and negotiated, but the bilateral will take 
time, and we just need to get about the business of selling 
U.S. products.
    So, if confirmed, my first stop is going to be at Mr. 
Lighthizer's office door. We have already discussed some of 
this, and he indicated to me that 80 percent of what he had 
heard had been about agriculture. So I thought that was good 
news, and we just got to get on it.
    Senator Hoeven. I think, obviously, with your background is 
so strong in agriculture across the board, but clearly, your 
background and your knowledge of trade, it is going to be very 
important that you are a lead player in negotiating those 
agreements.
    Mr. Perdue. We hope to be, Senator.
    Senator Hoeven. Great to see you. Thanks for being here----
    Mr. Perdue. Thank you.
    Senator Hoeven. --and for your willingness to serve.
    Chairman Roberts. I remember well, back in 1918, when 
Senator Joseph France became a member of the Committee. He was 
a good man, very willing and able to work with. Ninety-nine 
years later, we have the benefit of Senator Van Hollen coming 
from Maryland to join us on the Agriculture Committee. Welcome, 
sir.
    Senator Van Hollen. Thank you, Mr. Chairman, and thank you 
for noting that. I am very proud of the fact that I am the 
first Maryland Senator to serve on this Committee since back in 
1922, I believe, if our math is correct.
    Chairman Roberts. That is when he ended his service. He 
began in 1918.
    Senator Van Hollen. Governor, it is great to see you----
    Mr. Perdue. Thank you.
    Senator Van Hollen. --and I enjoyed our conversation as 
well. I want to pick up on one of the things we talked about, 
which is the Chesapeake Bay----
    Mr. Perdue. Yes.
    Senator Van Hollen. --which is a national treasure. It is 
also vital to the economy in the State of Maryland, having a 
healthy and clean bay, both for the watermen, the people who 
get the bounty of the bay, the oystermen, and the crabs, which 
many people around the country enjoy, to our tourism industry, 
where people from around the country come to the bay because of 
its beauty, and the boating industry. What we have worked in 
Maryland to do is work closely with our farmers to make sure 
that we have a vibrant farming industry on the Eastern Shore of 
Maryland along with a healthy bay, and so the conservation 
programs are very important to our state and the bay states, as 
many others.
    In the 2008 Farm Bill, I worked very closely with our 
Ranking Member and others to create a Chesapeake Bay 
conservation program, and that became very popular. Other 
states with water bodies were understandably interested. It 
became the Regional Conservation Partnership Program, and our 
conservation efforts also rely on the EQIP program and the 
Conservation Reserve Program.
    My question to you is, Do you agree that these are 
important programs that we have got in place that we need to 
continue?
    Mr. Perdue. Senator, I certainly agree because we cannot 
continue the progress that has been made in the Chesapeake Bay, 
and you have articulated what a vital resource nationally it is 
and certainly for the people who live in that watershed and 
around the body of water for so many reasons. But I do not 
believe we can continue the progress that has been made, much 
to the credit of farmers, agribusinesses, and others who have 
acknowledged that the runoff of nitrogen and phosphorous has 
damaged that. Hopefully, we could continue by, again, the 
education and the national--NRCS there, that we could continue 
that program. So I certainly hope that we will be able to and 
even increase and continue the progress.
    Senator Van Hollen. I appreciate that, and as you indicate, 
we have worked on a very cooperative relationship with the 
farmers in connection with this particular program, and as 
stewards of the land, it is very important that we have a good 
working and cooperative relationship, which we have had.
    I do just want to say, as a number of Senators have raised 
the issue of the proposed budget cuts to the rural water and 
waste disposal, the loan grant program. I listened carefully 
when the Chairman of our Committee said that the President 
proposes and the Congress disposes, and it is great to have the 
Chairman of the Appropriations Committee as well as the 
Chairman of the Subcommittee Appropriations for Agriculture. So 
we are going to, hopefully, work to make sure we address those 
issues.
    I can tell you 15 of Maryland's 24 counties would be in 
really tough positions if they do not get the benefit of those 
loans.
    I also say I look forward to working with the Chairman of 
the Appropriations Committee on the EPA budget. The Trump 
administration proposal wipes out the EPA's Chesapeake Bay 
program, which has had bipartisan support in our State of 
Maryland, so I do want to flag that issue.
    Senator Donnelly and others talked about the crop insurance 
and dealing with risk. In Maryland, most of our farms are 
small-and medium-size farms, and especially with respect to 
specialty crops, some of the way the crop insurance is 
currently designed does not fully meet their needs. So I just 
want to hear from you a willingness to talk and explore ways 
where we could modify some of those provisions to make sure we 
address the needs of some of the smaller, medium-size farms.
    Mr. Perdue. Certainly.
    By the way, congratulations on your desire to be on this 
Committee. I think Maryland--many people do not understand the 
value of agriculture to Maryland, but it is significant in that 
way, and your smaller farms particularly. The 2014 Farm Bill 
recognized the need for crop insurance and specialty crops in 
many ways. I think that was a great beginning. Can we go 
further? I believe absolutely. If we look at how we can--what 
we learned from the 2014 Farm Bill, how we can continue to 
enhance that, and to make small or specialty crops of 
particularly smaller farmers a viable alternative for them.
    Senator Van Hollen. All right.
    Finally, on the food and nutrition programs, I just want to 
add my voice to our Senators who have said how important that 
is to our states.
    Finally, Mr. Chairman, if I could just say that we have in 
Maryland an 1890 land-grant HBCU, University of Maryland 
Eastern Shore, that is doing innovative work. You know that our 
HBCUs have faced significant challenges, including maintenance 
funds and others, and I know you have worked on this issue. I 
would just like to get your commitment to follow up in a 
conversation to try and address the issue of strengthening the 
1890 HBCUs.
    Mr. Perdue. I would welcome that. We obviously have those 
in Georgia as well, and I think I was pleased to see our 
President welcome them as well and commit, to make commitments 
about those areas. So I look forward to working with you 
directly regarding your specific HBCU.
    Senator Van Hollen. We have a particular challenge and 
issue with one of our HBCU, 1890.
    Mr. Perdue. Okay.
    Senator Van Hollen. So thank you.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Brown.
    Senator Brown. Thank you, Mr. Chairman, and welcome, 
Governor.
    Mr. Perdue. Thank you.
    Senator Brown. Nice to see you again, thank you.
    My colleagues do not know, but during the Secretary-
designee's time in the Air Force, Governor Perdue spent time at 
Lockbourne Air Force Base in Columbus, Ohio, now Rickenbacker. 
I am glad you will always put Ohio second, right after Georgia, 
so thank you for that.
    Senator Van Hollen had a couple of points I want to 
reemphasize and then I'll go to a good handful of questions. 
One is the importance of the Chesapeake Bay. A lot of those 
same exact issues apply to the Great Lakes Restoration 
Initiative. The President has proposed to cut it by 100 
percent, which is just ludicrous.
    Senator Portman and myself and Senator Stabenow, all of us 
in the Great Lakes states--the irony, it was the Great Lakes 
states that really won him the election, and we have--I am old 
enough to remember--Senator Stabenow is not old enough, but I 
am old enough to remember what the Great Lakes looked like when 
I was a kid. It is one of the great accomplishments of 
government and communities and the Federal Government 
especially to clean this up, and we cannot backslide. So I 
would emphasize the importance of Great Lakes cleanup.
    The Chesapeake Bay is pretty important. The Great Lakes, 
though, are the largest collection of fresh water in the world. 
Chesapeake Bay is not even fresh water, so anyway----
    Senator Van Hollen. Can I object to that?
    Senator Brown. You can object.
    But he is a new member. He does not get to object.
    [Laughter.]
    Senator Brown. Also, I want to emphasize and thank Chairman 
Roberts, his comments about ag and nutrition and the Farm Bill 
holding it together when there is always pressures to divide 
it. I know that the Governor has supported that too, but thank 
you, Chairman Roberts, for your statements about that and the 
statements of Senator Van Hollen on the Historically Black 
Colleges and Universities. It is really, really important, and 
I wanted--Central State is an 1890 in my state, so this is 
particularly important to me. I know you have worked with 
Georgia's HBCU as governor, and that Fort Valley State 
University in your home state is an 1890 land grant.
    Thoughts? If you would give us, real briefly, because we 
are running out of time and a vote is coming, what specifically 
are your thoughts and ideas on the next steps you plan to take 
in support of these universities?
    Mr. Perdue. Again, I was pleased to hear the President 
welcome them and commit to do that. As you--I think you 
referred to Fort Valley State. They are in our adjacent county, 
and we know the work that they do as a land-grant university 
and unique niche programs there in the state. I look forward--
they have got a value to serve, and I look forward to helping 
them with the research, providing--asking them for particular 
research projects with USDA that has the opportunity to do 
that, give them an opportunity to compete in those areas, and 
to listen and learn from them as well as they can provide good 
information for us in areas in which they operate.
    Senator Brown. I appreciate your sensitivity to the 
Historically Black Colleges, unlike your soon-to-be colleague 
in the Cabinet who said that they were about choice or 
something when it came to black colleges. It was a rather 
peculiar statement, but that is not you.
    Senator Donnelly mentioned opioids. My state has more 
opioid deaths than any other state in the country. The repeal 
of the Affordable Care Act, there are 200,000--right now 
200,000 Ohioans that are getting opioid addiction treatment 
that are on the Affordable Care Act. I know that is not your 
issue exactly, although it is your party's issue and the 
President's issue. I just ask if something happens and that 
insurance is taken away, as it would be with the House bill, 
for all those people that have opioid addictions and are 
getting treatment, I would ask you if you would go back to OMB 
and the White House to protect funding used in the battle 
against opioid addiction in rural Ohio and rural America.
    Mr. Perdue. Yeah. I am not sure you were here when I had a 
great--when I mentioned the great conversation I had with 
Secretary Vilsack. He was very proud of the input the USDA had 
in the--on the sad opioid, and the sad thing about that, as you 
well know, Senator, much of this is in rural areas of despair, 
so I will--I will absolutely be an advocate of that for the 
betterment. Obviously, USDA does not have the basic capacity to 
supplant everything in health care, but it does have an 
opportunity to help in that regard. I would welcome doing that.
    Senator Brown. That again is why my Republican governor and 
my colleague in the Senate, Senator Portman, have both 
expressed great concern about the Affordable Care Act and what 
would happen to Medicaid. 700,000 Ohioans are on Medicaid 
expansion, and those are--it is pretty amazing to me that a 
bunch of us in this body who get government-supported 
insurance, whose taxpayers subsidize our health insurance, that 
people in this body and the other house want to take away 
insurance for a whole lot of low-income, working people. Those 
are the Medicaid expansion people, and I just needed to say 
that because it is such a big part of the opioid picture.
    Last issue--and I know you are getting impatient, Mr. 
Chairman, but thank you. I worked with Senator Thune in on the 
last Farm Bill on the Ag Risk Coverage program. I mentioned 
that in our meeting, the ARC. The program protects against 
unforeseen declines when either prices are low or production is 
low because of unforeseen circumstances, it ensures that 
farmers have a safety net. The administration's budget proposal 
included sharp cuts to the National Ag Statistics Service, 
which raises real questions about USDA having the resources 
necessary to collect the independent unbiased price and yield 
data so that ARC, A-R-C, can actually be implemented with the 
proper information. One in seven jobs in my state depends on 
agriculture.
    That is why I am on this Committee. I need to know that 
farmers can depend on you. I know that your specialty is not 
the same agriculture as most of the agriculture in the Ranking 
Member's, and my home states. I understand; I accept that. But 
I just want to know that you will work with us and use your 
authority to make sure that, A: we can find ways to carry out 
ARC, the Ag Risk Coverage program, and that B: you can help us 
provide short-term assistance for dairy farmers. I heard you 
mention them briefly, and I just need assurance on both of 
those issues.
    Mr. Perdue. Certainly. Let me just take the second one 
last. We have affirmed assistance on the dairy risk management, 
but farmers have to rely on the credibility of good independent 
data through the NASS to provide that, that information, 
because the ARC and the PLC program both depend on it. That is 
the independent source that is trusted worldwide, supply and 
demand and different things that move markets, so that is a 
critical, critical part of USDA, and I certainly will support 
that to the best of my ability.
    Senator Brown. Thank you. Governor, you can tell your 
children and grandchildren that your confirmation hearing was 
in the Kennedy Caucus Room, where the Titanic hearings were, 
the Watergate hearings, the markup of the Affordable Care Act--
what else happened?--the McCarthy hearings in the 1950s. All 
were in this room. So if your children and grandchildren are 
here, now you know, and if they are not here, tell them. All 
right?
    Mr. Perdue. I think you just told them, Senator.
    Senator Brown. I think so. Thank you.
    Chairman Roberts. Senator Stabenow.
    Senator Stabenow. Thank you, Mr. Chairman.
    I just want to indicate--I know we have a vote coming, and 
that you are about to wrap up. I do have additional questions 
that I will submit for the record, as well as the letter that I 
referenced earlier regarding dairy. I would like those to be 
placed into the record. Thank you very much.
    Chairman Roberts. All members should understand they can 
submit letters for the record.
    [The following information can be found on page 104 in the 
appendix.]
    Chairman Roberts. I do want to mention the fact that the 
Committee has received a number of letters in support of your 
nomination, including one from nearly 700--700 organizations 
across the agriculture and food value chain, as well as one 
from six former U.S. Secretaries of Agriculture representing 
both Republican and Democrat Presidents.
    Governor Perdue, thank you for your willingness to be 
considered for service to agriculture and rural America as 
Secretary of Agriculture. This Committee has a history of 
working in a bipartisan fashion, as this hearing has 
demonstrated, as opposed to others that have been going on in 
the Senate while crafting legislation and considering 
nominations, and we will move as quickly as possible to 
consider your nomination. As you know, we will not be voting on 
your nomination today, but we will work to schedule a business 
meeting ASAP for a Committee vote.
    Again, I ask members to submit any additional questions you 
may have for the record by five o'clock tomorrow, Friday, March 
24. In addition, the record will remain open for 5 business 
days for members so submit a statement or additional materials.
    Thank you to everyone for your time today. Young man with a 
red tie, who seems to be anxious to leave----
    Senator Stabenow. We have got two red ties here.
    Chairman Roberts. --we gotcha, man.
    [Laughter.]
    Chairman Roberts. We are adjourned.
    Mr. Perdue. Thank you, Mr. Chairman.
    [Whereupon, at 12:22 p.m., the Committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                             MARCH 23, 2017



      
=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             MARCH 23, 2017



      
=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





      
=======================================================================


                         QUESTIONS AND ANSWERS

                             MARCH 23, 2017



      
=======================================================================




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                              [all]
                      
                      
                      

</pre></body></html>
